<html>
<title> - [H.A.S.C. No. 109-105] IMPROVING INTERAGENCY COORDINATION FOR THE GLOBAL WAR ON TERROR AND BEYOND</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 109-105]

  IMPROVING INTERAGENCY COORDINATION FOR THE GLOBAL WAR ON TERROR AND 
                                 BEYOND

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 4, 2006

                                     
[GRAPHIC] [TIFF OMITTED] 



                     U.S. GOVERNMENT PRINTING OFFICE

32-971 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                Roger Zakheim, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                   Regina Burgess, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Tuesday, April 4, 2006, Improving Interagency Coordination for 
  the Global War on Terror and Beyond............................     1

Appendix:

Tuesday, April 4, 2006...........................................    33
                              ----------                              

                         TUESDAY, APRIL 4, 2006
  IMPROVING INTERAGENCY COORDINATION FOR THE GLOBAL WAR ON TERROR AND 
                                 BEYOND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2
Weldon, Hon. Curt, a Representative from Pennsylvania............     1

                               WITNESSES

Crumpton, Ambassador Henry A., Coordinator for Counterterrorism, 
  Department of State............................................    10
Giambastiani, Adm. Edmund P., Vice Chairman, Joint Chiefs of 
  Staff, U.S. Navy...............................................     5
O'Connell, Hon. Thomas W., Assistant Secretary of Defense for 
  Special Operations and Low-Intensity Conflict, Department of 
  Defense........................................................     4
Redd, Vice Adm. John Scott, Director, National Counterterrorism 
  Center, U.S. Navy (Ret.).......................................     8

                                APPENDIX

Prepared Statements:

    Crumpton, Ambassador Henry A.................................    53
    Giambastiani, Adm. Edmund P..................................    42
    O'Connell, Hon. Thomas W.....................................    37
    Redd, Hon. John Scott........................................    48

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Ms. Bordallo.................................................    81
    Mr. Israel...................................................    81
    Mr. Langevin.................................................    80
    Mr. Skelton..................................................    67
    Dr. Snyder...................................................    79
  IMPROVING INTERAGENCY COORDINATION FOR THE GLOBAL WAR ON TERROR AND 
                                 BEYOND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, April 4, 2006.
    The committee met, pursuant to call, at 4:10 p.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

 OPENING STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Weldon. The committee will come to order.
    Chairman Hunter is on his way. He should be here shortly. I 
will fill in until he arrives, along with our good friend, the 
ranking member.
    We welcome our witnesses, the Honorable Thomas O'Connell, 
the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict, Department of Defense; Admiral 
Giambastiani, Vice Chairman, Joint Chiefs of Staff; Admiral 
Redd, USN, Director For National Counterterrorism Center; and 
Ambassador Henry Crumpton, Coordinator for Counterterrorism, 
Department of State.
    Gentlemen, thank you for being here today; and thank you 
for your service especially during this critical time of our 
country.
    As we fight the global war on terror, we face a determined, 
adaptive and ruthless enemy. Since this war began, President 
Bush and other senior leaders have repeatedly said that to 
preserve our freedom in the face of such an enemy, we must use 
all the instruments of our national power, such as diplomatic, 
economic, intelligence, law enforcement, and military elements.
    Given this committee's particular focus on our armed 
forces, we would add that this effort cannot involve only or 
even primarily America's military services. Simply put, the 
fronts of engagement are so vast, no one agency can fight this 
war alone. So it follows that to effectively employ all of 
America's instruments of national power the organizations 
involved, from cabinet agencies to other nondefense agencies, 
must collaborate and cooperate as seamlessly as possible. But, 
to quote one recent witness, interagency coordination is, 
quote, ``both essential and lacking,'' end quote.
    Many other Administration officials, military leaders and 
nongovernment experts have echoed this assertion. In fact, 
DOD's recent Quadrennial Defense Review notes this deficiency 
in its section devoted to achieving unity of effort. To 
illustrate this challenge, it cites the relationship in the 
field between DOD's combatant commanders and the State 
Department's chiefs of missions, concluding that people from 
the two agencies must expend considerable effort on a case-by-
case basis to act together in support of operations. The 
result, according to QDR, is that commanders and chiefs of 
missions lose agility in the face of an adaptive adversary. 
Fleeing targets are missed, and risk to U.S. interests and 
those of our partners increase. We look forward to the 
witnesses commenting on this particular issue.
    Experts cite various factors as to why joint collaborations 
are ultimately unresponsive, cumbersome and slow. They point, 
for example, to the different legal authorities, philosophies, 
cultures and missions that guide each agency.
    Today, this committee looks forward to the witnesses' 
assessments regarding the state of interagency coordination, 
the progress being made to address particular areas of concern 
and how an appropriate Congress might help.
    This committee wants to be as supportive as possible in 
achieving the goal of seamless interagency coordination. If the 
way we are currently arranged is not flexible or responsive or 
comprehensive enough to meet this war's front line demands--and 
that appears to be so--we must critically examine our 
interagency relationships. Then we must make the necessary 
strategic and institutional changes to eliminate the stovepipes 
that restrict resources, information and expertise.
    The longer that we wait to address the root of this 
national security challenge, the more difficult it will be to 
fix. We should therefore ensure in all proper haste that we can 
use instruments of national power as easily and effectively as 
situations on the ground demand.
    I want to particularly thank Chairman Hunter and Ranking 
Member Skelton. It was seven years ago that this committee 
first proposed standing up a national collaborative center. In 
fact, in November of 1999, we first proposed that that 
capability be established linking together 33 agencies. It took 
us in 2003 to announce the establishment of the terrorist 
threat integration center (TTIC). The TTIC was proposed by this 
committee two years before 9/11 happened. In fact, we put 
language in three successive defense bills calling for the 
military to move toward a collaborative capability. So this 
committee will take a back seat to no one in our effort to push 
forth collaboration; and I want to thank our leadership for 
moving that agenda along, including our previous chairmen, 
Chairman Spence and Chairman Stump.
    Now let me turn to my good colleague, the gentleman from 
Missouri, for any remarks he would like to make. Ike Skelton is 
recognized.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you very much. Good 
afternoon, Secretary O'Connell and Admiral Giambastiani, 
Admiral Redd and Ambassador Crumpton. We thank you for being 
with us.
    Smart people have been talking about improving interagency 
coordination for a long time. A little voice says 1899. Okay. 
But our experience in Iraq and in the war on terror have 
demonstrated the necessity of getting it right.
    Gentlemen, the Secretary of State this past week said we 
made thousands of tactical errors in Iraq. Tactical errors are 
the ones made at the lowest level, by unit-level soldiers and 
by the civilians in the villages. And while I have the deepest 
respect for the Secretary, I think our greatest successes have 
been at the tactical level, where our brave young soldiers, 
sailors, airmen, and Marines and other government agency 
personnel and coalition partners have actually made it work 
without the benefit of a clear strategy or interagency planning 
from here in Washington.
    Our future efforts must be focused at the strategic level 
and, I have been saying for some time, have not deployed the 
civilian capacity needed in Iraq to help rebuild their 
institutions effectively. The State Department, though, has 
done better in recent weeks. We lost valuable time and we paid 
a price for theirs and others missing expertise in setting up 
or attempting to help the Iraqi government set up.
    American military has served admirably, including the 
reconstruction missions. But we have real talent in the 
civilian ranks that hasn't been fully used and must be. For the 
war on terror, strong interagency capability is no less 
critical.
    Our terrorism subcommittee under Chairman Saxton and Mr. 
Meehan held a hearing on just this topic that we are on today 
almost five years after 9/11. It is not clear to me that our 
government is doing all that it can to defeat al Qaeda or 
capturing bin Laden. We need all instruments of national power 
working as seamlessly together to achieve that goal.
    Today, we have a highly empowered military. In particular, 
our Special Operations Command is the most capable it has ever 
been; and it is getting more so.
    This Congress has granted extraordinary authority to build 
partnerships in the field that will help take down terrorist 
networks, but without an empowered interagency process that is 
working in concert, our military can't fully achieve its goals. 
This is borne out by other publications.
    For all these reasons, it is time to start the discussion 
about the actions needed to advance the ball. We do have some 
experience in Congress along these lines. Our current structure 
for national security was, as you know, set up by the National 
Security Act of 1947 when Harry Truman was President. It was no 
mean feat to pass that reform and establish a National Security 
Council at the Air Force after the Second World War at the very 
start of the Cold War.
    In addition, you know, I was able to work on the reform of 
the Defense Department that ended up being passed as the 
Goldwater-Nichols Act of 1986. At the time, people said it 
didn't need to be done. Others said it was too hard to do. 
Others said it would destroy individual services and devastate 
the Nation's defense and warfighting capabilities. Even once 
the bill passed, the changes didn't take place all at once and 
there was continuing resistance within the military. But, 20 
years later, we have implemented almost all of it and almost 
all of it has been successful. It works.
    The Goldwater-Nichols Act included changes in the personnel 
system, assignment policy, promotion requirements, professional 
military education institutions, as well as organizations and 
lines of command and control. We disrupted a lot of fiefdoms 
over these last 20 years to ensure success.
    Almost five years after 9/11, people are saying that the 
interagency differences in culture, problems with 
communication, difficulties with integrated planning, and 
operations still haven't been resolved to the extent they must 
be.
    Our forces in the field as well as those who will be asked 
to operationalize our future national security strategies 
deserve better. We want to know here in Congress how we can 
help.
    We need your insights, gentlemen, if it is sweeping change 
such as a new National Security Act or Goldwater-Nichols-type 
reform is necessary to get this interagency integration right. 
We can't experiment on this. We have to get it right the first 
time.
    What issues should we take on first and why? How can 
Congress help ensure that our folks in the field, whether they 
are in the military or intelligence or State Department, get 
the training and education and the leadership they need? I take 
a page from the 9/11 Commission report. Who do you think should 
be the quarterback? In Goldwater-Nichols, we put the combatant 
commanders in charge of operational planning and directing 
operations. Who is going to be in charge to integrate the 
interagency operations effectively?
    These are difficult questions. Such reforms will be more 
difficult than any government reform has been to date. It will 
be especially difficult for Congress because these topics cross 
jurisdictional lines. But somewhere someone has to start the 
ball rolling.
    We appreciate your help, Mr. Chairman, in this regard. 
Thank you.
    Mr. Weldon. I thank the distinguished gentleman.
    Without objection, the entirety of the witnesses' prepared 
statement will be entered into the record.
    We will go right down the line and start with Secretary 
O'Connell.
    We deeply appreciate your appearance here. The floor is 
yours. Thank you.

 STATEMENT OF HON. THOMAS W. O'CONNELL, ASSISTANT SECRETARY OF 
  DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT, 
                     DEPARTMENT OF DEFENSE

    Secretary O'Connell. Thank you, Congressman Weldon. 
Distinguished members of the committee, thank you for the 
opportunity to testify about Improving Interagency Coordination 
for the global war on terror and Beyond. We must bring all 
elements of our national power to bear in this struggle against 
global terrorism, and we can do so only through effective 
interagency coordination at every level. To maximize your time 
for questions, I will submit my statement for the record and 
just give a brief oral summary.
    Improving interagency coordination has been a goal of our 
government for decades. Congressman Skelton mentioned 1899. I 
had it pegged at 1947. But, in any event, this has produced a 
system that generally works well in crisis. However, it 
preserves agency equities in a way that sometimes make mundane 
policy changes difficult.
    Granted, changes in policy should not always be easy. But 
the key to success is to ensure that all affected areas of the 
government have ample opportunity to present the President the 
best advice available in a timely manner.
    The 2006 Quadrennial Defense Review report accurately 
states that we are in a long war that is irregular in nature. 
This long war is characterized by dispersed global terrorist 
networks with radical aims that threaten the United States, our 
allies, and our way of life. The nature of this long war 
requires the United States Armed Forces to adopt unconventional 
and indirect approaches to ultimately prevail in this struggle; 
and it places a premium on interagency operations, the kind of 
missions we need to undertake to make interagency coordination 
more important today than ever before.
    We need effective interagency processes to develop for our 
diplomatic operational and intelligence efforts to be 
successful. Cooperation across the Federal Government must 
begin in the field; and, at an operational level, we are doing 
a lot. I just returned from Iraq where I saw very effective 
interagency efforts at the tactical level. I think you would be 
extremely proud of the efforts that were being made there on 
behalf of the interagency.
    At the strategic level, DOD has partnered with State to 
coordinate and deconflict combating terrorist activities, 
synchronize efforts and provide a mechanism for monitoring 
progress and solving terrorist-related challenges by region. 
These have now been transferred to the National 
Counterterrorism Center, and it is there that much of our most 
recent progress in interagency coordination is taking place.
    The interagency process we have today can work well under 
crisis. But, even with all our efforts, the global war on 
terror (GWOT) presents coordination challenges not previously 
faced by the National Security Council (NSC); and there clearly 
is work to be done.
    In conclusion, we strongly urge Congress to provide our 
civilian sister agencies the resources requested in the 
President's budget to develop capabilities to deploy quickly 
and effectively in response to contingencies. U.S. service men 
and women need their civilian colleagues' expertise in the 
field. We cannot succeed without the help of our partner 
agencies and Congress.
    And I would like to thank this committee and Congress for 
your emphasis on this vitally important issue. I have read 
previous testimony taken by this committee, and I think you are 
making excellent progress in moving ahead on interagency 
issues.
    I welcome your questions.
    Mr. Weldon. Thank you.
    [The prepared statement of Secretary O'Connell can be found 
in the Appendix on page 37.]
    Mr. Weldon. Admiral, the floor is yours.

STATEMENT OF ADM. EDMUND P. GIAMBASTIANI, VICE CHAIRMAN, JOINT 
                   CHIEFS OF STAFF, U.S. NAVY

    Admiral Giambastiani. Thank you, Mr. Chairman, Mr. Skelton, 
and other distinguished members of the committee. Thank you for 
the opportunity to appear before you this afternoon.
    First, though, on behalf of our soldiers, sailors, airmen, 
Marines, and their families, thank you for your continued 
bipartisan support.
    In my almost 40 years in uniform, I have experienced two 
events that have truly transformed the Department of Defense. 
The first was a move to the all-volunteer force in 1973, 
mandated by Congress. The second, of course, as already 
mentioned, was the passage of the Goldwater-Nichols Act, the 
Department of Defense Reorganization Act of 1986.
    Goldwater-Nichols, as stated, proves its value as a model 
for improving integration among disparate but related 
organizations that share a common goal. DOD's experience in 
implementing Goldwater-Nichols provides us with particular 
insights into the challenges ahead as we seek to expand that 
success throughout the Federal Government.
    I would like to make three brief points, and I will 
truncate them. Obviously, there will be more detail in the 
record.
    The first one, I want to briefly review actions already 
under way to improve interagency efforts both at the national 
level and within DOD. At the national level, most of our effort 
has been focused on what I would call military support to 
stability, security, transition, and reconstruction activities. 
That is an acronym--as always in the Pentagon, we have one--
called SSTR, but we won't use that again here today, but I 
mention it. NSPD-44, which is management of interagency efforts 
concerning reconstruction and stabilization at national 
security Presidential directive.
    Frankly, we in DOD have taken steps to implement this 
through a directive that was signed out by our Deputy Secretary 
of Defense back in November. Perhaps most importantly, this 
directive--and I think most importantly--this directive 
establishes stability, security, transition and reconstruction 
operations, the military support to them, on a par with combat 
operations. That is very important, and we have written four 
joint operational concepts, of which this is one of the 
pillars. So it is on a par with combat operations within the 
Department.
    In addition, DOD has been looking more broadly at 
interagency requirements. Better integrating DOD's capability 
into the national effort, as you have already heard, and, as 
you also have mentioned, was in the Quadrennial Defense Review 
which I had the pleasure of co-chairing the effort with this 
with Deputy Secretary Gordon England. The QDR concluded that we 
in DOD needed to do more to share expertise, planning, training 
and professional development and education with our partners in 
the Federal Government and also with key allies and friends. To 
ensure DOD's senior leaders don't lose sight of our progress, 
we have directed the development of a roadmap tracking our 
efforts to build partner capabilities. This roadmap is 
currently being staffed but will be publicly available as soon 
as we have approved it.
    These efforts will build on actions already under way.
    As a former combatant commander of almost three years, I 
directed intense and substantial support to the State 
Department's effort to stand up the Coordinator For 
Reconstruction and Stabilization commissioned in July of 2004. 
In my view, this stabilization coordinator is a huge step 
forward in our national ability to develop concepts, 
experiments and exercise together, in addition to helping us 
execute and build interagency capabilities that are an 
important part for our civilian workforce.
    Second and very briefly, though we are making progress, 
improving integration at various agencies is, in my view--not 
surprising, as yours--an area ripe for further transformation. 
The global war on terror is primarily a communications, 
cultural, political, economic, diplomatic war, with obvious 
security and military components. In Iraq and Afghanistan, for 
example, most of the key activities for success are beyond the 
uniformed military. Security is a prerequisite, but other 
agencies must step up to solidify progress.
    Most of our interagency counterparts are beginning to take 
steps to build capabilities within their own departments. 
However, at the federal level, we do not yet have the 
appropriate structure, authority or tools to effectively 
integrate executive branch actions in the global war on terror. 
As always, it is harder to identify these problems--or to 
identify problems than it is to identify solutions. I don't 
have a significant number of solutions, but hopefully in our 
testimony today we will elaborate.
    Final point, we have a long road ahead, in my view. The 
first step is an ongoing dialogue. I hope this hearing is just 
the beginning of our work together to realize the full 
potential of this very complicated, complex, integrated 
interagency process.
    Goldwater-Nichols taught us that we need multiple pressure 
points to sustain forward momentum. Formal players and 
processes are key, not only inside the federal departments but 
congressional committees, as you have already stated. Congress 
clearly has a critical role to play. I would encourage you to 
develop strategies to find a way through this complex issue of 
committee jurisdiction and span of control so that the 
executive and legislative branches can move forward in tandem.
    As we work this issue through the QDR roadmap process I 
have already spoken about, DOD will propose legislation that 
will further enhance our ability to work more effectively with 
the Department of State, with the United States Agency for 
International Development (USAID), for example. We greatly 
appreciate your support of these requests, as they allow us to 
begin to change culture, processes and action on the ground in 
support of our counterterrorist policies.
    That is why a wide-ranging conversation is needed, in my 
view, to include experts out in academia and the think tanks. 
The work begun by the Center for Strategic and International 
Studies on beyond Goldwater-Nichols is an example of this work.
    Thank you again for the opportunity to be here today. I 
look forward to your questions.
    Mr. Weldon. Thank you.
    [The prepared statement of Admiral Giambastiani can be 
found in the Appendix on page 42.]
    Mr. Weldon. Admiral Redd.

  STATEMENT OF VICE ADM. JOHN SCOTT REDD, DIRECTOR, NATIONAL 
           COUNTERTERRORISM CENTER, U.S. NAVY (RET.)

    Admiral Redd. Thank you, Mr. Chairman, Ranking Member 
Skelton, distinguished members of the committee. I also 
appreciate the opportunity to appear before you today.
    As the President has stated on numerous occasions and as 
the title of this hearing indicates and recognizes, we are at 
war.
    Some aspects of this war are very familiar to us. Like the 
Cold War, it is likely to be a long war. I hope I am proven 
wrong, but I suspect my grandchildren will be adults before the 
end of this conflict is in our wake. Also, like the Cold War 
and its struggle against communism, this war has a very strong 
ideological content.
    But in many ways this is a very different war. The 
ideological dimension is framed in religious language by the 
terrorists, who justify their actions through reference to 
faith. The enemy is not a defined state but a shadowy group of 
individuals. Some of these are closely bound together to 
recognizable organizations, others are loosely networked, and 
some may even be individuals who act virtually on their own.
    However one chooses to characterize the nature of the enemy 
and the war, one thing is clear. To win the war, the United 
States and its allies must bring all elements of national power 
to bear on the problem. That, in a nutshell, is why the 
National Counterterrorism Center was established.
    Before I expand on that theme, however, let me first say 
that the performance of our men and women in uniform continues 
to be superb. Having spent 36 years in a Navy uniform myself, 
that doesn't surprise me. I can tell you, however, after eight 
months as the Director of the National Counterterrorism Center, 
I can also report that the other departments and agencies who 
are involved in the war on terror are also performing superbly. 
We are winning many battles that the public likely will never 
know about which are critical to our war effort.
    Let me now briefly review with you, if I can, the role that 
NCTC is playing and will play in the global war on terror.
    As you know, NCTC is a new organization, just over a year 
old. As mandated by the legislation which established us, NCTC 
performs at base two critical functions. In a sense, as 
director, I wear two hats.
    One of those hats involves a familiar role. That is the 
role of intelligence. In that hat, I report to Ambassador John 
Negroponte, the Director of National Intelligence, or DNI.
    The second hat, which is more appropriate or directly 
appropriate to what we are talking about today, involves a new 
and I believe revolutionary role. That is the responsibility 
for conducting strategic operational planning for the global 
war on terror for the entire United States government. In that 
hat, I report to the President.
    In short, in military terms, NCTC is responsible for 
producing the government's war plan for the war on terror and 
the intelligence annex which supports and underpins it.
    Again, given the topic of today's hearing, I would like to 
focus more on the planning role, but let me first review very 
briefly the intelligence role.
    The DNI has recently designated the National 
Counterterrorism Center as its mission manager for all 
counterterrorism intelligence. In that role, he will look to us 
to integrate all Intelligence Community efforts in 
counterterrorism, including collection, analysis and 
production. We are building that capability today.
    In the area of analysis--intelligence analysis--the law 
designates NCTC as the primary organization not only for 
integrating but also for analyzing all counterterrorism 
analysis.
    Today, the National Counterterrorism Center produces a full 
set of analytical products ranging from strategic analyses for 
the President and senior policymakers to tactical warning 
reports for the operators.
    We are also in the information sharing business. In fact, I 
would submit that NCTC is a model for the U.S. government's 
classified information sharing. In that sense, in a tactical 
level, NCTC runs a 24/7 high-tech operation center that is in 
constant touch with the counterterrorism community, ensuring 
that everybody has the latest threat information.
    We are also responsible for the government's central 
database of known and suspected terrorists. This all-source 
repository contains more than 300,000 entries, representing 
over 200,000 unique identities. This database is the ultimate 
source of the various watch lists, such as the no-fly list.
    Finally, we collect intelligence information and analysis 
on 28 different government networks and distribute it on line 
to over 5,000 counterterrorism analysts in the community around 
the world.
    That is a very short summary of what I believe is a growing 
and highly sophisticated intelligence operation.
    Let me now turn to our second fundamental mission, which is 
more apropos to today's hearing in the sense of strategic 
operational planning.
    In my view, strategic operational planning fills a long-
existing gap in government--and maybe it goes back to 1899--
certainly one that has been present--the gap has been present 
for most of my four decades of government service.
    Simply put, the White House has long been in the business 
of developing broad strategy policy. At the other end of the 
spectrum, the cabinet departments and agencies have been 
responsible for conducting operations in the field. What has 
been missing is a piece in between, a piece between policy and 
operations. That need has become even more obvious as we 
prosecute the global war on terror. Strategic operational 
planning is designed to fill that gap, as the Congress knows, 
because you established it. The goal of strategic operational 
planning is straightforward. Simply put, it is designed, as has 
been mentioned, to bring all elements of national power to bear 
on the war on terror.
    Our charter in this regard is simple in description but 
extremely complex in execution. Basically, it involves three 
phases.
    First, there is a planning process. This involves taking 
our national counterterrorism strategies and policies and 
translating them first into strategic goals, then into 
objectives and finally into discrete tasks. Those tasks are 
then to be prioritized and assigned to the departments and 
agencies, with lead and partner responsibilities defined. This 
process is not a unilateral drafting exercise by NCTC. It is, 
rather, an interagency effort involving literally hundreds of 
departmental planners working under our leadership.
    The second phase involves what the legislation describes as 
``interagency coordination of operational activities.'' that 
has been alluded to here today. That involves coordination, 
integration and synchronization of departmental operations.
    The final phase involves an assessment process. NCTC is 
charged by the President with monitoring, evaluating and 
assessing the execution and effectiveness of the plan and 
recommending changes where needed.
    The bottom line is that this is to be a continuing 
iterative process, and there is great value in that process. As 
General Eisenhower once said and once noted, plans are nothing; 
planning is everything.
    Mr. Chairman, that is a quick summary of the NCTC and our 
role in the global war on terror. We are in many ways a work in 
progress as we take on significant new responsibilities while 
continuing to perform ongoing tasks. As we often say, we are 
building an airplane while we are flying it. That said, I 
believe we have already made significant and measurable 
progress since our inception. We are fixing problems identified 
after 9/11 that the American people expect to be fixed. I 
believe we are providing a true value add which will only grow 
over time.
    Thank you, Mr. Chairman.
    Mr. Weldon. Thank you, Admiral.
    [The prepared statement of Admiral Redd can be found in the 
Appendix on page 48.]
    Mr. Weldon. Ambassador.

  STATEMENT OF AMBASSADOR HENRY A. CRUMPTON, COORDINATOR FOR 
             COUNTERTERRORISM, DEPARTMENT OF STATE

    Ambassador Crumpton. Congressman Weldon, Ranking Member 
Skelton, distinguished members of the committee, thank you for 
the opportunity to testify today. I will summarize my formal 
written statement and ask that you include my full testimony in 
the record.
    Mr. Weldon. Without objection.
    Ambassador Crumpton. Wars of the 20th century taught us the 
need for joint operations rather than separate Army, Navy, or 
air operations as manifest in the Goldwater-Nichols Act. 9/11 
taught us that we cannot afford to act as independent agencies. 
Our success against the enemy largely derives from our mastery 
of joint highly integrated operations that unify all the 
elements of national power into a coherent hold.
    The strategy I outlined here today of building regional 
partnerships to confront transnational threats and working at 
the intersections of diplomacy, democracy promotion, economic 
reconstruction and military security embodies the 
transformational diplomacy Secretary Rice outlined in her 
January 18th speech at Georgetown University.
    The State Department is deeply committed to this regional 
comprehensive interagency approach. What we need to make it 
work is unity of effort as much as unity of command.
    My personal commitment to interagency operations derives 
from my experiences working in many embassy country teams, 
being detailed to the Federal Bureau of Investigations (FBI) 
after the August 1998 bombings, and working hand in hand with 
U.S. military in Afghanistan immediately after September 11, 
2001.
    There, small groups of intelligence officers working 
closely with military and local partners developed an 
integrated strategy that killed or captured enemy leadership, 
denied terrorists safehaven and ultimately replaced the 
networks we destroyed with infinitely better institutions and 
the potential for a better future.
    In general terms, al Qaeda and affiliated forces, the 
terrorist group which currently poses the greatest threat to 
the U.S., its allies and partners, represent a multi-layered 
threat. Our effort, therefore, is structured in multiple 
levels: a global campaign to counter al Qaeda, a series of 
regional cooperative efforts to deny terrorists safehaven, and 
numerous national security and development assistance 
operations designed to build liberal institutions, support the 
rule of law, and enhance our partners' capacity.
    Key to this strategy is that we work with or through 
partners at every level, whenever possible.
    How, in practical terms, do we accomplish this? Our 
ambassadors, as the President's personal representative abroad, 
are uniquely poised to bring all the elements of U.S. national 
power to bear against the terrorist enemy.
    The interagency country teams, they oversee, develop 
strategies to help host nations understand the threat and to 
strengthen host government political will and capacity.
    There are other examples of interdependent interagency 
teams working at local levels, such as the Provincial 
Reconstruction Teams, or PRTs, operating both in Afghanistan 
and Iraq. As part of the State Department's transformational 
diplomacy, 100 slots, with more to follow, have been shifted to 
areas of counterterrorism concern.
    But as I noted earlier, we need more local or national 
bilateral programs. With that in mind, we have worked with our 
interagency partners to develop regional strategies. For 
example, the Trans-Sahara Counterterrorism Initiative is a 
multi-year strategy aimed at defeating terrorist organizations 
throughout northern Africa. DOD, U.S. European Command 
(EUCOM)--specifically, State, USAID and others--contribute to 
this regional effort.
    We are broadening this approach through a Regional 
Strategic Initiative, RSI, program designed to develop flexible 
networks of interconnected country teams. My office is working 
with ambassadors in key terrorist theaters of operation to 
assess the threat and devise interagency strategies and 
recommendations. These recommendations are key to promoting 
cooperation between our partners in the war on terror, between, 
as an example, Malaysia, Indonesia and the Philippines, as they 
look at terrorist safehaven in the Sulawesi Sea or between 
Mauritania, Algeria, Morocco, Niger, Chad and Mali as they seek 
to counter the Group Salafiste pour la Predication et le Combat 
(GSPC).
    We have had three regional conferences this year. More are 
scheduled for the coming months. These conferences are chaired 
by a regional group of ambassadors, with the Washington 
interagency representatives in attendance. This, of course, 
includes representatives of the geographic combatant 
commanders, Office of the Secretary of Defense (OSD), Special 
Operations Command and, of course, the National 
Counterterrorism Center.
    The State Department's Office of Political and Military 
Affairs has assigned political advisers to all the combatant 
commanders, and this program is growing.
    Within my office, there are more active duty and reserve 
military officers detailed to our operations directorate than 
there are State Department officers. Moreover, we are also 
working with diplomatic security, USAID, the entire 
intelligence community, Department of Homeland Security, 
Department of Justice, Department of Treasury and others to 
integrate our efforts. These Washington-based interagency 
efforts in our Regional Strategic Initiatives must intersect to 
provide the best global strategic perspectives and resources 
with the best field perspectives and implementation.
    In sum, terrorists exploit political, ethnic, communal, and 
economic grievances. Bringing terrorist leadership to justice, 
denying terrorists safehaven and addressing the conditions they 
exploit are key. This is the case on a policy level also. Our 
counterterrorism agenda and our freedom agenda are linked in 
real and strategic terms. It is also true on a practical level.
    We are working well in improving our cooperation in 
Washington. However, our best means of countering the 
multilayered terrorist threat is via coordinated networks of 
interagency teams operating under the ambassadors' authority; 
and we in Washington must support our ambassadors in the field 
because they can integrate diplomacy, intelligence, military 
power, economic assistance and the rule of law against the 
enemy.
    This need for interagency operations goes far beyond mere 
coordination or cooperation. It demands that we plan, conduct, 
and structure operations from the very outset as part of an 
intimately connected whole-of-government approach. We are not 
there yet, but we have made progress.
    Mr. Chairman, that completes the formal part of my remarks; 
and I welcome your questions or comments.
    Mr. Weldon. Thank you, Ambassador.
    [The prepared statement of Ambassador Crumpton can be found 
in the Appendix on page 53.]
    Mr. Weldon. We want to thank all four of you for your 
outstanding service for your country as well as for your 
testimony today. We will note for the record that Admiral 
Giambastiani has a commitment, a hard time of 6 p.m. that he 
has to leave, so I will just advise my colleagues that we will 
adhere to that commitment.
    Just one question to start off; and I guess, Admiral Redd, 
perhaps you are the one to answer this question.
    One of the concerns I have had for--first of all, the work 
that you are doing, to me, is the most critical work, to 
protect the national security of this country that we have in 
America. It is absolutely the number one priority to have this 
integration of capabilities and this coordination and 
collaboration between agencies. As I said, it has been a key 
priority of this committee since back in the late 1990's, both 
in terms of words and hearings and by action that we took in--
my recollection is three successive defense bills before 9/11 
to have this capability in place.
    One of the concerns I had during the 1990's was that the 
Central Intelligence Agency (CIA) was not using open source 
information as a part of their national intelligence estimates; 
and oftentimes you can get some of the best information 
involving terrorism or terrorist activities from open source, 
non-U.S. based data. So my question to you, Admiral Redd, is 
does the NCTC now have a non-U.S.-based open source capability 
and are we using that perhaps for--you talked about the 
classified systems that we have. And I am not talking about a 
U.S. database. I am talking about non-U.S. open source 
information and who is doing that, those assessments, if it is 
in practice and in place?
    Admiral Redd. First of all, let me say, obviously, I agree 
with your comments. I came back into government after being 
retired for about eight years for that reason. Before I came to 
the National Counterterrorism Center, I was the executive 
director of the Weapons of Mass Destruction (WMD) Commission; 
and one of our recommendations was exactly on that subject, as 
you may recall. That is, that the use of open source, 
particularly as the world has changed and we fight terrorism, 
open source is absolutely critical.
    One of our 74 recommendations, of which the President 
accepted I think 72, was to create, to establish an Open Source 
Center (OSC). That has now been done, and the Central 
Intelligence Agency is where it resides. And, yes, we use that 
information routinely.
    All of my analysts have the ability to go online. We have 
the OSC. The President's daily brief on occasion will have an 
Open Source Center item. So that well-recognized need I would 
say has been implemented and implemented pretty effectively. We 
use that. In fact, the whole Intelligence Community receives 
that now.
    Mr. Weldon. Thank you.
    The chairman is going to have a number of questions when he 
arrives, so I am going to defer to the distinguished ranking 
member, Mr. Skelton.
    Mr. Skelton. Admiral Redd, in listening to your testimony, 
let me ask you a basic question; and we will get to the subject 
at hand in just a minute. Would you tell us, is the goal of the 
insurgency in Iraq the same goal as the al Qaeda terrorist?
    Admiral Redd. Is the goal of the insurgents in Iraq the 
same goal as the al Qaeda terrorists?
    Mr. Skelton. Yes, sir.
    Admiral Redd. There is certainly a strong congruence there.
    Mr. Skelton. Just say yes or no; and then give me the 
reasons, please.
    Admiral Redd. Let me ask you one question then, sir. When 
you say al Qaeda, you mean al Qaeda central leadership? I would 
say there is about a 90 percent overlap.
    Mr. Skelton. You mentioned that it was a religious thing in 
your testimony. Is the insurgency in Iraq a religious--have a 
religious purpose?
    Admiral Redd. A good part of the motivation, I would submit 
to you, sir, in the insurgency in general in Iraq as well as 
the terrorists, both the foreign and the indigenous, certainly 
use a religious motivation as their rationale for much of what 
they do.
    Much of the discussion we see, as you know, and there has 
been some things in the press recently about, for example, 
about Zarqawi and his relationship with Zawahiri, there has 
been a discussion over the religious motivation for that. So I 
would say there is clearly an element of that, a dimension of 
that which is pretty strong, yes, sir.
    Mr. Skelton. Admiral Giambastiani, the QDR emphasizes the 
importance of interagency capacity; and General Pace, as you 
know, has spoken before this committee about the need to 
develop and reward civilian experts that will complement the 
military side and also spoke about the need for coordinating 
interagency planning.
    Your testimony, Admiral, focuses narrowly on existing 
training and equipping authorities and on supporting the State 
Coordinator For Reconstruction Securities, also known as SCRS. 
Admiral, why doesn't the Defense Department have much broader 
recommendations in light of what was said in the QDR, on the 
one hand, and General Pace on the other?
    Admiral Giambastiani. If I understand your question, why 
doesn't the Department have broader recommendations like 
General Pace has suggested, sir.
    Mr. Skelton. And the QDR. It is a two-fold thing. And for 
the recommendations that follow the words of General Pace and 
the QDR.
    Admiral Giambastiani. I am still a little bit confused----
    Mr. Skelton. Let me try again. The QDR emphasized the 
importance of interagency capacity.
    Admiral Giambastiani. Correct.
    Mr. Skelton. General Pace has spoken before this committee 
about that, about the need for coordinated interagency 
planning. But your testimony focuses narrowly on existing train 
and equip authorities and on supporting the state Coordinator 
For Reconstruction and Security. Where are the broad 
recommendations that are referred to in the QDR and referred to 
by General Pace?
    Admiral Giambastiani. Sir, what I would tell you is, rather 
than repeating everything that has been written in here from 
page 83 through 92, which I am incredibly familiar with, having 
helped put this together for 6 months, I did not repeat 
everything that was in here. However, I would tell you that 
this unity of effort section I am firmly committed to 
everything written in here.
    In fact, what we are doing, as I mentioned in my testimony, 
is that we have put--we are putting together a roadmap or what 
we say is called building partner capacity. In that roadmap for 
building partner capacity there is a whole section in here that 
talks about strengthening interagency planning and operations, 
and then the other half is how we deal with our international 
allies and partners.
    That is why I didn't put it in here. It is implied, but I 
did not restate it.
    Mr. Skelton. Thank you.
    Mr. Hefley [presiding]. Thank you, gentlemen.
    Right after 9/11, there was big criticism about lack of 
cooperation between the various agencies and particularly the 
various intelligence agencies. And I guess from your testimony, 
although you talk about what you are doing and you are trying 
to coordinate and you are making progress in certain areas, if 
you asked me to walk out of here right now and tell someone 
that, yeah, we have overcome that and there is a sharing of 
information and the agencies are working together, I wouldn't 
be able to do that.
    I guess I want--my question is, should I be able to do 
that? Should I be able to walk out of this room and say, yeah, 
I am really excited that our various agencies, including the 
intelligence agencies, the defense agencies, the State 
Department and on and on and on are really working together as 
a team now and don't have the proprietary attitude that they 
have had in the past, the stovepipe attitude that they have had 
in the past? What should I tell people if I leave the room with 
this?
    Admiral Redd. Let me give you two very concrete examples, 
if I could, which I alluded to on the intelligence side.
    The first is this database. Pre-9/11, there were four or 
five different database of suspected terrorists. They were 
spread among at least four departments. They were disconnected, 
and they were incomplete. Today, there is a consolidated 
database which we keep at NCTC which is all source, highly 
classified, goes into the most sensitive information we have 
from every intelligence agency. We take an unclassified extract 
of that, ship it to the FBI's Terrorist Screening Center, and 
that then becomes the single basis for the no-fly list, the 
visa list that Customs uses, all the other, the Border Patrol, 
et cetera. So that is a very concrete major change.
    The second thing has to do just in intelligence, if you 
would, which has to do with sharing intelligence. Again, before 
9/11, very often the way you saw--from my experience, the way 
you saw a sensitive piece of information or even a piece of 
analysis from another agency which was hand-carried to you as a 
hard copy and usually very time late.
    We take in at NCTC today on those 28 networks, many of 
which are classified and connect to all the intelligence 
agencies and many agencies not part of the intelligence 
community, we bring in all of their intelligence. We take in 
their documented or--I am sorry--their disseminated 
intelligence. That may be a final analysis piece done for a 
policy level. It may be an intelligence report on something 
which has great tactical and immediate value. We take that, put 
it up on one Web site called NCTC On-Line, or NOL; and that is 
available to analysts throughout the community. Right now, it 
is more than about 5,500.
    So if you are cleared and you know you do have a pipe, the 
beauty of it is you can come to that website for whatever your 
pipe is. Whether it is JWICS at classified defense level, 
SIPRNET, FBINET, whatever agency you are in, you can come in. 
So an analyst from, for example, the Defense Intelligence 
Agency (DIA) or Bureau of Intelligence and Research (INR) and 
State can come in, pick a subject and see what every other 
agency has written about that, and it is available 
instantaneously, they can search and shred it.
    So those are two very concrete things and very positive 
things that have changed since 9/11.
    Mr. Hefley. Thank you very much.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral Redd, we appreciate the fine work that you do as 
the director for the National Counterterrorism Center.
    There has been talk about maybe placing the National 
Counterterrorism Center within the National Security Council. 
Do you feel that this would just create another bureaucracy and 
not strengthen the intercommunication coordination? How do you 
feel about that?
    Admiral Redd. Well, two things.
    First of all, I think it is good to make a distinction. As 
I mentioned in my opening remarks, in my 40 years in government 
there has always been sort of a gap. There has been strategy 
and policy done rightly by the White House, by the National 
Security Council, operations by the Department.
    What has happened over the years is there is a natural 
tendency, because that planning piece has been missing--in the 
past, it has been easier perhaps to get passes, just like we 
used to do in the military. We used to do, Army, you go here; 
and, Navy, you go here. But as we get more and more involved in 
this sort of internet transnational operation, there is a need 
for a planning process.
    I would submit that you want to have a bit of an air gap, 
if you will, between those. Policy and strategy done up here, 
and planning done at the NCTC. Operations, obviously, continue 
to be done by the departments and agencies. So I think that is 
kind of the way you want to do it.
    At the end of the day, though, Congressman, you know the 
authority that the NCTC has, the authority that the National 
Security Council has, whether it is writing policy, whether it 
is coordinating operations, derives from the United States. So, 
ultimately, the goal is that we can get as much of the 
coordination done at a lower level, closer to the operators, 
but in those events or those instances where you can't get that 
done, then you kick it up sometimes to the National Security 
Council and ultimately, if it is required, up to the President.
    Mr. Ortiz. This is a question for all of you, and maybe you 
could give me a little input. Would you support increasing the 
legal authorities and bureaucratic resources available to the 
National Security Council?
    Admiral Redd. The question is, would you support the 
additional resources to the NSC?
    Mr. Ortiz. Yes, sir.
    Admiral Redd. You want to take a shot at that, Admiral?
    I think the NSC, sir, I would comment in terms of 
authorities, because it derives its authorities from the 
President and probably has a pretty good handle on what 
resources it needs. I personally don't see a need to increase 
that, but I would let the NSC speak for themselves, sir.
    Admiral Giambastiani. I think, as you know, Congressman 
Ortiz, we send a number of military personnel and DOD civilians 
to the National Security Council to support the National 
Security Adviser and the staff; and we continue to do that. As 
a matter of fact, we are just recently detailing a Navy one 
star over to the national security division there, so I would 
tell you we are involved in this constantly.
    I am not aware of any additional requirements that they 
have asked us for. I did receive a call on this one individual, 
and we go work them right away when we need to.
    So that is all I am aware of, sir.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    As we look back and begin to where we began to see the 
threat change, there were some people in Washington, in the 
Pentagon and the Congress, who thought that we might want to 
begin to change the construct of our national security force. 
By national security force, of course, most of us were thinking 
in those days of the Department of Defense and CIA and 
intelligence-gathering apparatus.
    But not much happened for a long time. If you look back to 
the middle 1980's, things were quiet; and, after some years, 
1990, Secretary Cheney came here and said he had good news and 
bad news. He said, the good news is the Soviet Union is going 
to go away. He said, the bad news is the threat isn't. It is 
just going to change. And the institutions in this town didn't 
change much until something happened in 2001 to make us change.
    Shortly after 2001, a retired Army Colonel by the name of 
Doug MacGregor wrote a book about how to transform the Army. It 
was called Transformation Under Fire, and the book talked about 
changing the divisional structure to brigade combat team 
structure. It talked about making us more mobile, and it said 
that we were going to get this done essentially because 9/11 
mandated that we get it done.
    So we have been talking now about how to change. Over the 
past several years, we have been talking about the necessity of 
coordinating other agencies with DOD and intelligence 
collection; and I would make the same point that MacGregor 
makes about the Army.
    We don't have a choice. We need to do these things; and, as 
painful as they may be institutionally, we need to get them 
done. And I would just like to ask you what you think we ought 
to do in order to really start this ball rolling. And I might 
say that we means all of us. Because we are talking about 
changing the Administration, and so we need to work with the 
Administration.
    As partners in this change that we have to do, how would 
you each suggest that we proceed?
    Why don't we start with you, Admiral Giambastiani?
    Admiral Giambastiani. Thank you, sir.
    I might mention--Congressman Ortiz, I hate to do this--but 
we recently sent our number one analyst--I forgot about this--
my best analyst, a senior executive service (SES), on a request 
by them for a one-year assignment. I lost this person for one 
year as of the first of February.
    Congressman Saxton, I am sorry to use the time there, sir, 
but, very quickly, I will tell you, first of all, the best time 
to transform, in my personal view, is when you are doing 
something that requires it.
    For example, we are in this global war on terror now. There 
is no doubt in anybody's mind, for example, in those Army 
brigades, battalions out in our armed forces, the need for 
transforming in the middle of operations right now. The impetus 
is clear. They understand it. I think the people that 
participate back here also understand this necessity for 
transmission, and what I will tell you is that there is a 
variety of ways that we can start.
    One of them is, I already told you, is that we think inside 
of the Department there are things we need to do. For example, 
we are working with other agencies to provide planners. We have 
seven planners right now over working for Admiral Redd at the 
NCTC. Plus, we have 20 intelligence personnel assigned over 
there from--27 from DOD that I am aware of.
    In addition, we are currently looking at how we can 
increase this planning capability in other agencies, which are 
very important.
    So we are looking with the State Department on not only 
what we have there now, but how to increase the planners. These 
are at the level of day-to-day planning and operations levels. 
We also are working on what we call joint interagency 
coordinating groups and how to embed them in our combatant 
commands to help tie together U.S. interagency operations 
overseas at the combatant commander level. Clearly there is a 
need for those at a higher level within the government. But the 
planning functions that I talked about and that Congressman 
Skelton mentioned before are incredibly important in each one 
these departments.
    What I would suggest for you is that when you all mandated 
Goldwater-Nichols 20 years ago, as a result of this we have 
created in the Department with your authority a number of 
institutions such as a Joint Forces Command and a Joint 
Warfighting Center to do joint organize, train and equip. One 
of the questions you would ask yourself is what dedicated 
organizations out there wake up every single morning with the 
people in them and worry about how to do interagency organize, 
train and equip? You have created NCTC, the National 
Counterterrorism Center as an institution that worries about 
planning and intel integration on a daily basis, but there are 
broader institutions than that, I would suggest, as one 
parallel.
    Admiral Redd. I would add, I think, the instructive that 
when the Congress wrote the legislation a little over a year 
ago, that when the term ``strategic operational planning'' was 
used, nobody was quite sure what it meant. It took half a year 
to figure out what it meant.
    I think that is sort of indicative of where we have come 
from, the planning in the context the way the military did it. 
And my last job on active duty was as a J-5, the Director for 
Strategic Plans and Policy. We grew up in a culture of 
planning, but it is different in every agency.
    So putting this together, this SOP, strategic operational 
planning together, has been pretty interesting. For example, we 
have--as the Admiral indicated, we have a number of people from 
DOD. My head planner is sitting right behind me, an active duty 
two-star officer. We have had over 200 people in from the other 
agencies around the government, and writing is one of our major 
plans, for example. Part of that is an education process, but a 
lot is getting people to say common picture, we are going to 
start with the same common operational picture in military 
terms, and here is what we mean by planning, and here is where 
you come together, and that process, to use the Eisenhower 
quote again, is so incredibly valuable.
    Now, I think you remember from the legislation Jack Bauer 
does not live at NCTC, we don't do operations. We are precluded 
from directing operations, although we do interagency 
coordination. There may be a time that we may look at a next 
phase, which is sort of a Goldwater-Nichols, too, and the whole 
government, but, again, the analogy is we are building an 
airplane while we are flying it right now.
    The strategic operational planning is going to bring a 
tremendous value, and in some ways already has, to the 
government.
    Admiral Giambastiani. If I could add one other thing, Mr. 
Saxton. Another one of these types of institutions where you 
build a culture of this interagency jointness culture on a day-
to-day basis is National Defense University on the educational 
side. Congressman Skelton has been such a strong supporter of 
these types of institutions and our war colleges.
    One of the ways is to potentially look at that as a 
National Security University. We have an awful lot of 
interagency and state folks who attend there, and others, but 
one potential is that.
    Another way is to embed a culture of lessons learned across 
the different departments. This is very important, and we have 
worked extensively in the interagency right now with Homeland 
Security Council, with the National Security Council to embed a 
broader lessons learned culture, one that actually looks at 
what and critiques what problems we have. So you can build that 
culture of jointness.
    Secretary O'Connell. Congressman Saxton, if I could, a few 
observations on jointness and things we are doing differently 
today. I have counternarcotics as one of my portfolio missions, 
as you know, and I like to look at our Key West 
counternarcotics elements commanded by a coast guard officer as 
a potential model for how we do some of these future 
interagency operations. It doesn't get a lot of attention 
because the just, quote, drugs, but I think that model is 
springing up elsewhere and is being effective particularly in 
U.S. Central Command (CENTCOM) and some of the searches against 
high-value targets.
    We are transforming how the military does foreign 
assistance. We have got to be more agile in terms of how we 
train and equip and help other nations to build capacity, and I 
think it is noteworthy that Secretary of State and Secretary of 
Defense have agreed on a joint way forward that I think is 
going to be very helpful to the department and to our allies.
    We have little problems all over the place that we are 
trying to solve by putting specific task forces against them. 
One is intelligence on narcotics poppy in Afghanistan. We have 
teamed with the Brits and DEA to put a cell in London that I 
think will produce good results against that problem set. 
Similarly, threat financing is something that we in the 
Department do not have a lot of expertise on, but we have found 
that by working with Treasury and working with State and also 
Justice, the Attorney General, we can put some elements of our 
military power against that particular target, and we are 
finding our way through that because we are truly not expert. 
But without our interagency partners, we would have really no 
chance in being successful there.
    So those are just a few ways that I think we are moving in 
the right direction, sir.
    Mr. Skelton. Yes. Admiral Giambastiani, this afternoon I 
sent a letter to the Secretary of Defense and to the Chairman 
asking specifically about the vision for the suggested National 
Defense University to become a National Security University, 
and seeking the recommendation in concert with the mission of 
the National War College and the College of Armed Forces. I 
will supply a copy of that letter to you. Good. Thank you.
    The Chairman [presiding]. Thank you, sir.
    Admiral Giambastiani. As always, sir, we are ready to 
discuss it, and General Pace will talk to you, as I will. Thank 
you.
    The Chairman. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Gentlemen, I thank you for being here. There is one comment 
before a couple of questions. A couple of you mentioned the 
issue that we have on this side of the table, which is we have 
got some jurisdictional problems, too, and I agree with that 
100 percent. I recollect Secretary of State Madeleine Albright 
testifying here. I recall Secretary of State Powell testifying 
here. We have never had Secretary of State Rice testify before 
this committee, and yet I think everyone in the country is 
aware that we have got some real issues in terms of who does 
what in Iraq, and yet we don't look into that.
    Some time ago I had suggested, I don't remember if it was 
to Chairman Hunter or a previous chairman, that I thought our 
subcommittees ought to have a bit of a geographic overlay; that 
the subcommittee on terrorism would also have some kind of 
geographic responsibility for Asia, and the other subcommittee 
might have responsibilities for Latin America, just so that we 
would force ourself to look at a total picture. It was another 
great idea that went straight to hell. That happens sometimes. 
I thought it would help.
    It is not in your interest today, but we have a problem, as 
you may know. The veterans committee has jurisdiction over the 
GI bill for veterans. This committee has jurisdiction over the 
GI bill for our reserve components troops, and we--because we 
can't get together, our reserve component guys who qualify are 
getting hurt in the process and being treated poorly, but that 
is an issue we have to work out. So we have got some issues 
with regard to our jurisdiction.
    One of the issues that came up, Ambassador Crumpton, is 
throughout the testimony there is a lot of references to 
partnership and cooperation and all this kind of thing. When I 
think about the football huddle, they don't work by partnership 
or cooperation, they work by who calls the play. Ambassador, 
you specifically mentioned the ambassador. You put a lot of 
emphasis on the ambassador being the play caller.
    A few years ago I was in Sierra Leone right as the U.N. 
forces were moving in to take over after the rebels were pretty 
much defeated, and we had at that time three U.S. troops there 
providing training. One of them was a Marine, and he was a 
typical tough Marine, but he was so exasperated because when he 
had flown into the country on a helicopter, in his words, a 
little old lady, I think it was a robust retiree who found a 
second career, and he said literally was wearing a neck collar 
because she was having some problem. They landed in Freetown. 
They come off the helicopter. She is picked up because she 
worked for some private citizen, and she is whisked off 60 
miles away in Sierra Leone. He is forbidden--and the ambassador 
could not do anything about these regulations--he was forbidden 
from staying anywhere overnight except in Freetown because of 
the orders that had come from other Marines outside of the 
country. There was a very great frustration.
    We got that worked out after I got back, but it brought 
home to me while the ambassador may be a direct representative 
of the President, there is not, as you know, a clear chain of 
command.
    Do you have any comments on what role our ambassador should 
have? It is one thing to say they represent the President, but 
there is a lot of people that have lines of authority that the 
ambassador cannot cut through. What is your comment on that?
    Ambassador Crumpton. Sir, I think of the examples where we 
are having some counterterrorism (CT) success, where we have 
got strong ambassadorial leadership in the field, where they 
are able to lead and able to pull together interagency teams.
    In terms of empowering ambassadors, I think the effort we 
are making through this regional strategic initiative is a step 
in that direction because it helps them partner better with the 
combatant commanders, who are basically organized in regional 
teams. Also, I think we empower them through linking them 
closely to NCTC, the operational planning that is being done 
there. NCTC is doing some great work, and we have detailed some 
of our people into the strategic operations planning entity. 
But you have got to bring that to the field, and you have got 
to bring the field back to Washington in terms of 
recommendations and in terms of implementation. I think that is 
how we empower the ambassadors.
    What I would like to do, in fact, is I would like to bring 
them back to Washington in the near future and have them meet 
with members of Congress and explain their perspectives, their 
challenges, and how we can all work more closely together.
    Dr. Snyder. Would you give three or four specific examples 
from Iraq, from our experience in Iraq the last three years 
where we have had a failure of interagency cooperation that we 
wish we had done better on? Some very specific examples, 
please, that may or may not have been corrected.
    Admiral Giambastiani. If I could address your comments on 
the chain of command for that Marine first. The chain of 
command for the Marine happens to be from the President down 
through the Secretary of Defense, to the combatant commander, 
and he has a chain of command underneath. So I just want to 
make clear that is the military chain of command. There is no 
other chain of command. I think that is very important for all 
of us to understand that.
    The second thing is if I could take this question for the 
record, I would be happy to submit it for you, sir.
    Dr. Snyder. All right. That subjects us to Office of 
Management and Budget (OMB) scrubbing, but that is okay, I 
guess.
    [The information referred to can be found in the Appendix 
beginning on page 79.]
    Dr. Snyder. Let me make a comment. If I might respond to 
what you said about the Marine. One of three U.S. troops in the 
country, only three, and it means with that being the chain of 
command, without having some kind of delegation to the 
ambassador or something, that it means an individual troop is 
going to have to somehow go up the chain of command when he is 
only one of three troops in a designated country.
    Admiral Giambastiani. I don't know the specific example 
well, but what I would tell you, if it was a member of the 
embassy team, that is one issue. If he is put in as an 
individual augmentee, that is a different situation on who his 
command is. If he went in as part of the embassy team, which is 
directed out of the Marine Corps headquarters, that is one 
issue, but generally for all military it is as I described it.
    Dr. Snyder. I understand.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here, for your testimony.
    Admiral Redd, you said that we are winning many battles 
that the public likely won't know about. Is that because we are 
not telling them because they are classified? What did you mean 
by that?
    Admiral Redd. Because they are classified. Because they are 
classified.
    Mr. Kline. I won't ask you now in this venue, but I hope we 
will have the opportunity to learn what some of those battles 
were and see if we can't declassify some of that for the people 
to know. It is unfortunate that you all, all of us are engaged 
in a war, global war, against Islamist extremists and winning 
battles and don't even know we are fighting them. If you can 
get back to me with a way we might be able to do something 
about that.
    Admiral Redd, you mentioned in the context of the strategic 
planning effort that you work it down to discrete tasks. Does 
that mean that you are tasking other agencies, that you have 
employees there that come from other agencies? What does that 
mean that you are giving discrete tasks?
    Admiral Redd. NCTC--this is not an NCTC-originated thing. 
We provide the leadership, but, for example, we have maybe 100, 
200 planners from State Department, DOD, different parts. They 
come together. So this is an interagency effort which we 
provide the venue and leadership and some of the connectivity.
    What I referred to is taken directly out of legislation. 
Take the strategy and policy, break it down to goals, next to 
objectives, then to discrete tasks. Once we get to that task, 
which in some ways gets to some of the issues we have heard 
here today, and say, okay, that is a task which by legislation 
and by common consent or, if necessary, the President's final 
decision, that is a task that, say, State Department should 
have the lead on, and everybody understands that, but DOD and 
CIA or another department should be in support. So just, A, 
defining the task, saying who has got the lead and who is in 
support is a pretty major thing.
    Mr. Kline. Thank you. Let me see if I understand this 
right. Obviously if it gets to the President, the President 
could order every agency, I understand that. But as a working 
matter when you are assigning--finding and assigning a discrete 
task, that is being accepted and acted on as an assignment, it 
is being done?
    Admiral Redd. It is being accepted as that is the plan, and 
that is what it is going to be, and in many cases--this is a 
work in progress, by the way, but in the plans----
    Mr. Kline. I understand, but we are trying to get to the 
point, you have seen the question asked in a number of 
different ways, who is the quarterback, who is calling the 
plays?
    Admiral Redd. We just sent you a thing called a National 
Strategy for Combating Terrorist Travel, and that is a 
classified document. We hope we get an unclassified version. In 
there it breaks it down, and we see those objectives and tasks 
and the lead. The lead may be in many cases State; may be 
Department of Homeland Security (DHS) or FBI with that. Those 
are done. At the end of the day, that plan was taken to the 
White House, to the National Security Council, for final 
blessing, so all the agencies voted, and the President made the 
decision.
    Mr. Kline. Okay. Thank you.
    Admiral Giambastiani, you said in your testimony, and you 
have addressed a couple of times here, the road map, which will 
be ready soon. Forces may ask what is soon? If you can answer 
that. Are we talking about weeks, months?
    Admiral Giambastiani. We figured we would be completed with 
a road map within six months of the issuance of the QDR report. 
We are two months along, and we not only have this road map, 
but we have seven others.
    Mr. Kline. Okay. That is good. Thank God for global 
positioning systems (GPS).
    On this road map, this interagency road map, this is 
addressing more than intelligence interagency. This is 
Department of Agriculture (USDA), State, USAID, all that; is 
that correct?
    Admiral Giambastiani. Yes, sir. There is, again, two main 
components of it. One of them is to build partner capacity with 
the interagency partners inside the U.S. Government.
    Mr. Kline. But all of them.
    Admiral Giambastiani. Yes, sir.
    And the second part is to build capacity with international 
allies and coalition members.
    Mr. Kline. Perfect. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Mrs. Davis.
    Ms. Davis of California. Thank you very much.
    I think this issue of interagency coordination that we all 
kind of jumped into as part of the committee QDR was an eye-
opener, so I appreciate your being here.
    I wanted to continue, Admiral Giambastiani, for a second on 
the National Defense University and just to be sure that that 
is not necessarily including a name change to National Security 
University without all that must go along with it. So partly 
could you discuss the extent to which it is mostly semantic, 
and perhaps some of that is somewhat superficial, and whether 
or not it really represents a real change in the way we train 
people?
    I would also like you to address whether there are some 
intended consequences here, because I think that NDU has done 
such an incredible job in training our future military leaders, 
and I am wondering if there would be some--I don't know if I 
call negative consequences, but certainly some change that we 
might take away from that role that NDU has really used so 
well. Could you please comment on that, and I will have some 
other questions.
    Admiral Giambastiani. First of all, as you point out, this 
is, once again, a complex issue. We have worked extensively 
with Mr. Skelton over a lot of years because of his tremendous 
interest in this area, and he knows this subject backwards and 
forwards.
    If I were to look at the National Defense University and 
how we evolved to this point, there are various components over 
there, the National War College. We have the Industrial College 
of the Armed Forces, for example. We have the Joint Forces 
Staff College, which is down in Norfolk, Virginia. There is a 
series of components that work there for the president of NDU, 
who then reports to the Chairman of the Joint Chiefs.
    There are no--first of all, it is such a complex issue that 
there are no end states that we have come up with right now. 
These are thoughts on how to build dedicated organizations 
inside the federal government that not only perform what NDU is 
designed to perform for the military and for the Department of 
Defense, but our military officers in the joint culture; that 
this is complex enough where this is not something we certainly 
would do overnight, and there have been no decisions made on 
it.
    But the point is, and I think Congressman Skelton brought 
it up in his letter, you bring it up now, there are potentially 
unintended consequences about diluting and reducing the 
effectiveness of that with regard to what our military officers 
do. So this is not something that is going to happen overnight. 
There is quite a bit of deliberation. But I would tell you that 
is an honest and forthright effort to try to help and work with 
the rest of the interagency to build this joint culture that 
Congress has been so effective in instituting here over this 
past 20 years with Goldwater-Nichols. The question is how can 
we then bring the joint culture to the interagency without 
diluting it inside DOD. That is a substantial question to 
answer.
    Ms. Davis of California. I appreciate that, and I think at 
the state level as well at one of the hearings it was 
interesting to talk about the kind of staying power of the 
military in Iraq versus the staying power of the State 
Department, because we can't put some of those same requests 
really on our diplomats, on our ambassadors there. That 
probably plays into it as well in terms of the training and how 
you can assure that the kind of investment that is being made 
there would also be carried through at different levels.
    I don't know whether you would like to comment.
    Admiral Giambastiani. If I could add another one, Mrs. 
Davis. We have outside of the National Defense University tried 
to extend this through a series of training events, exercises, 
not just in the education realm. We have created a joint task 
force commander training course inside the Department of 
Defense called PINNACLE. What is interesting about this is it 
is designed for our two- and three-star military officers who 
are going to be joint task force commanders, but I created this 
down with my staff at Joint Forces Command about a year and a 
half ago, almost two years ago now, and we have had a series of 
these courses, and we have had State Department reps there 
every time at the senior level. The current Ambassador to 
Albania was my first State Department rep. We have had very 
senior people out of the Federal Bureau of Investigation. Coast 
Guard is always there. It is primarily designed for our U.S. 
military joint task force (JTF) commanders, but because so much 
of their job is to work in an allied and interagency way, you 
must, in fact, include those folks.
    And what I would tell you is we have also extended to other 
members within the interagency our CAPSTONE course for brand 
new flag and general officers, which we have had around now--I 
attended it back in February of 1994. And I would tell you 
there is an extension of these to try to bring these on. So it 
is not just the educational piece that is important, it is a 
very comprehensive piece across the board.
    Ms. Davis of California. Thank you. My time is up, but I 
certainly appreciate what you are doing and how important that 
is not just to our homeland security, disaster preparedness, as 
well as to national security.
    The Chairman. Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. Let me ask for a 
very brief answer on this question from each of you.
    Knowing that in the global war on terror nearly every 
instrument of national power is going to be applied to the 
global war on terror, in each of your mind which agency should 
take the lead role in the global war on terror domestically, 
and then abroad as well? Very briefly.
    Ambassador Crumpton. Internationally, I believe that when 
you look at all the instruments of statecraft and how that is 
pulled together, I think the ambassadors are uniquely poised, 
as I noted, but it also depends on where we are. If you are in 
a combat environment, as Iraq, clearly the military has the 
lead. In most other countries when you talk about pulling this 
together, I think that falls upon the ambassador.
    Bear in mind, sir, that counterterrorism policies and 
operations are not planned or executed in a vacuum, they are 
part of broader geopolitical concerns, and that must be 
factored into the implementation of these policies. I will 
defer to others regarding the lead in the domestic field.
    Admiral Redd. I am going to maintain my honest broker role. 
That is something very hard right now. At the level you 
described, at the 200,000-foot level, it is a very difficult 
answer. When you break it down to the 20,000-foot or 50,000 
level, it becomes a little more obvious in many cases.
    Mr. Gibbons. Who is taking the lead role domestically?
    Admiral Redd. Law enforcement today would probably say the 
FBI, the Department of Defense, and if it is otherwise than 
that, Department of Homeland Security.
    Mr. Gibbons. Admiral.
    Admiral Giambastiani. Sir, with regard to the homeland, I 
would concur with what Admiral Redd just told you on the 
homeland side. With regard to obviously the war zones, it is 
clear where we work these, and we have a chain down through the 
Department of Defense. When we have a chief of mission, for 
example, in a non-war-zone area, the chief of mission and the 
combatant commander work closely together. Who is the lead?
    Specifically for what the military does, it is the 
President through the Secretary of Defense, and we work in 
close coordination or integration, depending on the situation, 
with the State Department is the best thing I can tell you 
right now.
    Mr. Gibbons. Mr. O'Connell.
    Secretary O'Connell. I, of course, agree with the Vice 
Chairman. There are gray areas. The interagency is discussing 
it. It would be quite a different issue if you were operating, 
let's say, in a Jordan how you might deal with that particular 
government, as opposed to the problems that might be posed in 
Somalia where there is no viable government or no 
representation.
    Mr. Gibbons. Let me go back to Mr. Redd, since you have 
got--Admiral Redd. We have just gone through the Zacarias 
Moussaoui's trial, and it has been reported that somewhere 
along the line the FBI agent in charge of that investigation 
attempted numerous times, and I have been told up to 70 times, 
to obtain a warrant to search the hard drive of his computer, 
but yet he was denied. What went on there? Why was that an 
issue?
    Admiral Redd. Congressman, in all honesty I don't know the 
answer to that. I can pass that to the FBI or have somebody get 
back to you. That was well before there was an NCTC. I don't 
know the answer.
    Mr. Gibbons. Prior to 9/11, right?
    Admiral Redd. Yes, sir.
    Mr. Gibbons. Let me in the brief time I have left go back 
down the aisle and start with Mr. O'Connell. Name the three 
core competencies you would expect each agency to contribute to 
the global war on terror. Just three. I don't want a litany of 
20, just 3. Top three.
    Secretary O'Connell. Agility, honesty, and professionalism.
    Mr. Gibbons. Admiral.
    Admiral Giambastiani. What I would say is that each of 
these agencies are going to have to learn and bring an ability 
to do integrated planning with the rest of us. They will have 
to be able to do the manning and resourcing necessary to 
conduct interagency operations, some would say expeditionary; 
and their ability to conduct operations in a joint interagency 
way as we move forward; and, finally, to share information in a 
way that is useful across the entire government and potentially 
with our allies and coalition members.
    Mr. Gibbons. Admiral Redd.
    Admiral Redd. I would give you the same three qualities I 
would expect in a topnotch leader: Vision to understand the 
significance of what they are doing, excellence to do it well, 
and teamwork. Work together.
    Mr. Gibbons. Ambassador.
    Ambassador Crumpton. First and foremost, virtue. That 
includes knowing ourselves and knowing our partners in the 
interagency. Second, leadership through partnership, through 
teamwork, and, third, understanding the global battlespace and 
all of our foreign partners and how we can best work together.
    Mr. Gibbons. Thank you, gentlemen. My time has expired.
    The Chairman. Mr. Skelton.
    Mr. Skelton. General Wayne Downing is quoted in the New 
York Times on the 31st of last month, and I will read the quote 
to you. It regards his new classified study for the Secretary 
of Defense. I will read his quote to you, and I will ask each 
one of you individually if you agree with what he said or if 
you disagree with what he said, and if you wish to add 
additional comments after you state whether you agree or 
disagree, you may do so.
    General Downing said this: ``Over the years the interagency 
system has become so lethargic and dysfunctional that it 
materially inhibits the ability to provide the vast power of 
the U.S. Government on problems. You see this inability to 
synchronize in our operations in Iraq and Afghanistan, across 
our foreign policy, and in our response to Katrina.''
    Ambassador Crumpton, agree or disagree?
    Ambassador Crumpton. I disagree, and I have got great 
respect for General Downing, worked with him closely for years, 
but I think the interagency system is not lethargic and 
dysfunctional. I think it needs improvement, and we are working 
toward that end both in the field and here in Washington.
    Mr. Skelton. Thank you.
    Admiral Redd.
    Admiral Redd. I had lunch with Wayne about a week ago.
    Mr. Skelton. I didn't ask about lunch. Do you agree or 
disagree?
    Admiral Redd. I disagree with him, for the basic same 
reason Ambassador Crumpton gave to you. There has been a lot of 
progress. It could be better, but I think it has gotten much 
better, if you will. I can remember 20 years ago, and we have 
come a long way since then.
    Mr. Skelton. Admiral.
    Admiral Giambastiani. I disagree, and I disagree because he 
said it has become more lethargic. In my experience it has 
actually become more active. That doesn't mean it is anywhere 
near where it should be.
    Mr. Skelton. Mr. Secretary.
    Secretary O'Connell. I agree with the fact that General 
Downing was uniquely placed to make that observation, but it 
was some time ago, but he was fulfilling a critical role in the 
interagency.
    But I would agree with Admiral Giambastiani that there have 
been significant improvements. Every week I sit with people 
like Ambassador Crumpton, General Schlesser behind me, other 
assistant secretaries from Treasury, people from the FBI, 
assistant directors, and we work through very, very difficult 
issues that are not just difficult for the interagency to look 
at, but are difficult for our deputies and sometimes our 
principles to come up with the right recommendation for the 
President.
    A simple issue like manpads or shoulder-fired air defense 
weapons, the policy on those goes from everything to the FBI, 
State Department, across the Defense Department, Treasury. All 
those work together to try to come up with the best 
recommendation for the President. I think the system is better 
than when General Downing was in his previous position, sir.
    Mr. Skelton. Let me ask each of you this question: Can you 
give us a concrete example where another agency worked well and 
an example where it did not work well and what we learned from 
those examples?
    Ambassador Crumpton.
    Ambassador Crumpton. The first example of working well is 
in the spring of 2002 in southern Afghanistan where a CIA 
source identified enemy movement out of a village predicted at 
dawn. U.S. Navy responded with a P3 surveillance aircraft over 
that village; therefore, the mission was handed off to a CIA-
operated unmanned aerial vehicles (UAV), which in turn was able 
to inform a ground team consisting of CIA Special Forces and 
Afghans that interdicted the enemy convoy which left that 
village, which brought time for a Navy SEAL team to deploy and, 
working with that UAV platform, interdict and destroy an enemy 
convoy.
    Mr. Skelton. Can you give us an example where the 
interagency--an example where it did not work well?
    Ambassador Crumpton. Yes, sir. If you look at Iraq, if you 
look at how we sought to work through a number of issues both 
political and military, including intelligence, I think there 
are examples there of where the interagency failed.
    Mr. Skelton. Admiral Redd.
    Admiral Redd. The example I would give you of success is 
one which I can't state a lot about in the open forum, but one 
you will certainly appreciate. First of all, it has a 
characteristic which is the area where we think that the 
interagency or NCTC has a particular role. This is in the issue 
of the use of the Internet by the terrorists and how to counter 
that. It is an instance where no one agency is a big dog, if 
you will, has the ability or authority to do it, but all of 
them rely on each other. And in this particular case the 
interagency has come together in a very effective, which, 
again, most of it classified, but a very effective way so 
everybody that needs everybody else is able to get those 
authorities together.
    I guess I would take a little bit of what Ambassador 
Crumpton said on the negative side. I was Ambassador Bremer's 
deputy in Baghdad for about two and a half months. Somebody 
said bureaucracies do things well the second and subsequent 
times. That was the first time we tried to run a country in 
about 50 or 60 years, and it was a slow start and one of the 
hardest things I have had to do.
    Mr. Skelton. Thank you.
    Admiral Giambastiani. On the successful example, I would 
use any number of provincial reconstruction teams inside 
Afghanistan. I think in general they have been a success. In 
fact, they have been such a success that NATO is coming in and 
taking this example, and they are, in fact, taking over many of 
the provincial reconstruction teams around the country and have 
been doing this for a period of two and a half years now where 
the idea was conceived inside the United States with the USAID 
representatives, State Department, other international folks 
embedded in them.
    I could give you specific examples of road construction and 
many others, and I would be happy to talk to you about them, 
but in general the concept of using these reconstruction teams 
has been very successful, and that is why it is being carried 
forward.
    On the negative side I would tell you that I think we have 
gone through fits and starts of police training in particular 
inside both Afghanistan at an international and national level 
inside the interagency, and we wound up having to take over 
police training here in the Department of Defense as a lead 
agency within the government here about four months ago, and we 
are now using the same techniques for training the police as we 
are doing and have been doing for a good period of time with 
the Army where we are embedding training teams and the rest. So 
that was not a success, not successful.
    Mr. Skelton. Mr. Secretary.
    Secretary O'Connell. I think an area where we can look back 
and reflect that the interagency may have done a better job was 
with the assessment of the condition of the Iraqi 
infrastructure. I think that it was considerably weakened. I 
was not in the office then, but I looked at that as a member of 
industry, and I think perhaps certainly the interagency came up 
short.
    I would say there was a whole rank of successful 
interagency activities that take place every week within the 
counterterrorism subgroup, just recently a very deliberative 
process, I think, with a successful conclusion to designate Al 
Manar as a terrorist entity. A lot of work, lot of research and 
efforts by not only people in State, in Treasury and in law 
enforcement to come up with that recommendation for the 
President. That is a small example of something that takes 
place every week, sir.
    Mr. Skelton. Thank you, gentlemen, very much.
    The Chairman. Mrs. Davis.
    Ms. Davis of California. Thank you again, Mr. Chairman.
    One of my responsibilities on our committee QDR was to look 
at catastrophic disasters and the interplay between the 
military and state and local government. And I know you were 
asked something similarly about who is in charge and how could 
we better plan for that. When you think about those disasters, 
could you give a kind of grade, I guess, in relationship 
perhaps to the core competencies that you discussed earlier? 
Are we in a place that you think that we have taken hold of 
those and that you think that the military is able to integrate 
and plan with our national and State and local authorities, or 
are we at a real beginning stage with that? How would you 
change it? What would you do?
    Secretary O'Connell. Let me start quickly with not 
commenting on the domestic, because that is not my portfolio. 
Assistant Secretary Paul McHale and Ambassador Giambastiani 
would be better to comment.
    Overseas we have had a process that we have worked on with 
the combatant commanders, foreign consequence management, where 
let us say you had a disaster like in India that took place 
again. There are certain things that the combatant commander 
may be able to offer and may be able to use immediately to 
mitigate the effects of that disaster. He has certain 
authorities, of course, some going back to the Secretary, to 
take what actions he can in conjunction with the host 
government to use U.S. forces, resources and other applications 
to try to mitigate that particular type of disaster.
    The same would be true of let us say a nuclear release that 
might be inadvertent. Those things that could be used by the 
combatant commander overseas would be used not only for 
protection of U.S. personnel, but for the protection and safety 
of the indigenous population. We have those procedures in 
effect.
    It is very difficult to protect what is going to be next or 
how it will unfold, but at least we think about it and we do 
work on it. In fact, we are planning an exercise in the next 
month and a half with each combatant commander to do a tabletop 
on that.
    Ms. Davis of California. Would you--just to follow up 
quickly, would you say the same thing about the control and 
prevention of infectious diseases? Where are we in relationship 
with that globally?
    Secretary O'Connell. Let me tell you something that I can 
address from the Special Forces point of view. A Special Forces 
noncommissioned officer in the field with a foreign armed force 
can be a very, very effective tool for change. We have an AIDS 
program where some of these Special Forces, not just the 
medics, instruct foreign militaries on how AIDS is spread, what 
it can do to the country, and basic sanitation and other 
medical procedures. It has been very, very effective. We have 
seen measurable reduction in areas where the armed forces have 
received that training, and we will continue to do it.
    That is just a small example, and I could go on with things 
like sanitation, a lot of the work that the civil affairs 
people do, and, in fact, a lot of the information that we can 
spread to our psychological operations elements to put out 
information to indigenous populations. So it is something we 
do, I think, with a great deal of pride and a great deal of 
skill.
    Ms. Davis of California. On the coordination of the 
military with federal, State and local.
    Admiral Giambastiani. What I would say is that our ability 
to coordinate has improved greatly in my experience as a 
combatant commander who had to train troops for about three 
years before I came to this current job eight months ago.
    In response to disaster relief and civil authorities, let 
me tell you why I say this. The creation of the Northern 
Command under a general or an admiral on the first of October, 
2002, brought great focus to this. Prior to that time, and I 
arrived at the time that this occurred, U.S. Joint Forces 
Command, my old command, had to do this, but it is was more of 
a collateral duty than it was a full-time duty. And the joint 
chiefs came together, the Secretary of Defense, and we said we 
need a dedicated organization so that we can, in fact, focus 
our ability to do homeland defense, work with local 
authorities, work with the National Guard and the rest in a way 
that is concerted and have an organization that wakes up every 
single day thinking about that.
    So that was a very important piece; in addition to that, 
creating a whole series of capabilities, quick-reaction forces, 
ready reserve forces, trained forces for chemical, biological, 
radiological, nuclear. And in addition, there is a good section 
in the Quadrennial Defense Review that talks about in addition 
to our render safe to work with law enforcement agencies and 
local officials, for potential weapons of mass destruction. In 
addition, we have been conducting exercises. Just a couple of 
weekends ago I was at the Old Executive Office Building, now 
the Eisenhower Building, working on a smallpox exercise. That 
is the second in a series of these very large exercises that we 
have been doing.
    So I would tell you that we are working very hard to 
coordinate and integrate federal actions so that we can 
integrate better with state and local. There is a lot of work 
to be done here.
    Ms. Davis of California. Thank you.
    Do you want to comment, Admiral Redd?
    Admiral Redd. I don't have a comment.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Dr. Schwarz [presiding]. Dr. Snyder.
    Dr. Snyder. One quick follow-up question, Mr. Chairman.
    Ambassador Crumpton, you heard Mr. Giambastiani's 
discussion about the chain of command in the military. You are 
the Department of State guy. How is this supposed to work? You 
have the ambassador directly representing the President. So let 
us suppose Center for Disease Control (CDC) has somebody in the 
embassy that is to work on avian flu. Does the ambassador have 
any chain of command over that, or does the Secretary of 
Commerce have somebody in the embassy working on economic-
related issues, or the trade ambassador working on trade-
related issues? Do all the secretaries claim the chain of 
command is directly from the President to that secretary, down 
through? Tell me how this is supposed to work in terms of 
coordination within a country.
    Ambassador Crumpton. Yes, sir. If anyone from any U.S. 
government agency is assigned to an embassy and is accredited 
to that particular country, they are part of the country team. 
They all work directly for the ambassador.
    Dr. Snyder. Does that apply to military people also?
    Ambassador Crumpton. Yes, sir. As an example, the defense 
attache, he answers to the ambassador. When you have 
circumstances like Iraq, like perhaps Somalia, where U.S. 
military deploys its people, in those environments they do 
respond, they do follow the command of the regional combatant 
commanders and then in turn to the President.
    Dr. Snyder. But when it comes to the military situation, 
there must be a lot of gray areas. We go from--you mentioned 
two countries, Somalia and obviously a war in Iraq, and then 
you have taken a country that is completely at peace with the 
defense attache. But we must have military people floating in 
and out of countries, perhaps following up on leads that you 
have given, perhaps not, but those people would still stay 
under--they would have to--let me say it another way. Unless 
there was a formal relationship in which the Secretary of 
Defense said this person is part of your embassy team, the 
ambassador would not have any authority over that military 
person passing through the country; is that a fair statement?
    Ambassador Crumpton. No, sir, he would have authority. He 
has to give country clearance for any U.S. government official 
to enter his country.
    Dr. Snyder. Including the military.
    Ambassador Crumpton. Yes, sir.
    I have an operations directorate I referred to in my 
prepared remarks. We facilitate that travel, working very 
closely with the special operations community and working with 
our ambassadors, embassies overseas to facilitate their travel 
and support their mission.
    Dr. Snyder. Thank you.
    Thank you, Mr. Chairman.
    Dr. Schwarz. Thank you, gentlemen, very much for being 
here, Secretary O'Connell, Admiral Giambastiani, Admiral Redd, 
Ambassador Crumpton. If there are no further questions from the 
committee, this hearing is adjourned.
    [Whereupon, at 5:55 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 4, 2006

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 4, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32971.001
    
    [GRAPHIC] [TIFF OMITTED] 32971.002
    
    [GRAPHIC] [TIFF OMITTED] 32971.003
    
    [GRAPHIC] [TIFF OMITTED] 32971.004
    
    [GRAPHIC] [TIFF OMITTED] 32971.005
    
    [GRAPHIC] [TIFF OMITTED] 32971.006
    
    [GRAPHIC] [TIFF OMITTED] 32971.007
    
    [GRAPHIC] [TIFF OMITTED] 32971.008
    
    [GRAPHIC] [TIFF OMITTED] 32971.009
    
    [GRAPHIC] [TIFF OMITTED] 32971.010
    
    [GRAPHIC] [TIFF OMITTED] 32971.011
    
    [GRAPHIC] [TIFF OMITTED] 32971.012
    
    [GRAPHIC] [TIFF OMITTED] 32971.013
    
    [GRAPHIC] [TIFF OMITTED] 32971.014
    
    [GRAPHIC] [TIFF OMITTED] 32971.015
    
    [GRAPHIC] [TIFF OMITTED] 32971.016
    
    [GRAPHIC] [TIFF OMITTED] 32971.017
    
    [GRAPHIC] [TIFF OMITTED] 32971.018
    
    [GRAPHIC] [TIFF OMITTED] 32971.019
    
    [GRAPHIC] [TIFF OMITTED] 32971.020
    
    [GRAPHIC] [TIFF OMITTED] 32971.021
    
    [GRAPHIC] [TIFF OMITTED] 32971.022
    
    [GRAPHIC] [TIFF OMITTED] 32971.023
    
    [GRAPHIC] [TIFF OMITTED] 32971.024
    
    [GRAPHIC] [TIFF OMITTED] 32971.025
    
    [GRAPHIC] [TIFF OMITTED] 32971.026
    
    [GRAPHIC] [TIFF OMITTED] 32971.027
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 4, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. The 2006 QDR Report emphasized the importance of 
interagency capacity and unity of effort. General Pace has spoken 
before the HASC both about the need to develop and reward civilian 
expertise that will complement the military, and the need for 
coordinated interagency planning and responses to complex 
contingencies.
    The VCJCS's testimony for hearing focused narrowly on existing and 
desired train and equip authorities and on supporting the State 
Department's Coordinator for Reconstruction and Stabilization. Given 
the QDR's emphasis and General Pace's statements, does the JCS have 
broader recommendations?
    Admiral Giambastiani. Thank you for the opportunity to share three 
of the broader recommendations I [and the JCS] believe are necessary to 
achieve our goal of ``unity of effort.'' Consistent with the 
recommendations of the QDR and with General Pace's suggestions before 
this committee and elsewhere, these three involve change beyond DOD 
alone.
    First and foremost, I believe the Executive and Legislative 
branches must together develop a new USG capability that allows us to 
prepare for, plan, and execute whole-of-government operations in the 
21st century security environment. To do this, we should bring together 
the executive and legislative branches in a bipartisan, cooperative 
effort that examines the complete range of possibilities for change to 
our interagency processes and stays together in partnership to 
implement the measures that make the most sense for the nation.
    Second, planning is the integrating function. Planning is the 
activity that brings together the key stakeholders to formulate whole-
of-government goals and objectives that, in turn, direct every activity 
of the departments and agencies of government toward the desired end. 
We must institutionalize a planning capability throughout the USG. 
Currently, this capability is mature and resident only in our military 
forces. I am very interested in developing ways in which we can grow 
this capability outside our military--which is just the kind of thing 
that we need to address collaboratively across the USG. That leads me 
to the third broad recommendation.
    The mechanism for institutionalizing a new planning capability and 
for growing skilled civilian planners is the same--education and a 
career track that rewards performance in this field. Professional 
education as a core element of one's career development program is the 
key enabler to institutionalizing all of the new interagency 
capabilities we seek. It is time for the idea of a profession in 
national security to reach its full potential. We recommend a national 
security professional development and education system that encompasses 
the appropriate departments of the federal government in a way that 
leverages our successful post-Goldwater-Nichols experience with our 
integrated joint officer management and joint professional military 
education programs.
    Mr. Skelton. Admiral Giambastiani testified that we should be 
considering elements outside government when we discuss interagency 
improvements. Explain. What is the JCS doing to advance this notion?
    Admiral Giambastiani. When I think about applying all of our 
national capabilities, I am often led to entities outside the federal 
government. I am interested in developing ways for the USG to be more 
inclusive in how it plans, prepare for, and execute stabilization, 
security, transition & reconstruction (SSTR) operations and similar 
operations within the US, such a Hurricane Katrina-like response. SSTR 
operations provide a good baseline for development because they 
intrinsically require more capability than is available within any 
single government.
    The Department and the Joint Staff are advancing this work 
principally through the QDR Building Partnership Capacity (BPC) Roadmap 
and the work of United States Joint Forces Command (USJFCOM). The BPC 
Roadmap explicitly directs the Department to work with nongovernmental 
organizations and the private sector to develop more effective ways to 
collaborate during planning, preparation, and execution activities. One 
example of this effort is the development of recommended guidelines for 
civil-military relations in non-permissive environments, compiled by 
the Office of the Secretary of Defense, the Joint Staff, the combatant 
commands, the United States Institute for Peace, and the NGO umbrella 
organization InterAction.
    USJFCOM, partnering with the Department of State, Coordinator for 
Reconstruction and Stabilization (S/CRS), has used the Multinational 
Interagency Group experiments to work out process and organizational 
solutions. These solutions enable and encourage information sharing and 
coordination of effort across the international interagency community 
(coalition partner civilian governmental agencies) as well as the 
broader community of international organizations including NATO, the 
EU, and the UN.
    Several recent humanitarian operations, including tsunami relief, 
Hurricane Katrina, and the Pakistani earthquake have advanced our 
interagency coordination skills. The Federal Response to Hurricane 
Katrina Lessons Learned recommends that federal response better 
integrate the contributions of NGOS and the private sector into the 
broader national effort--reinforcing the QDR's same recommendation for 
the Department of Defense.
    We must carry our discussion on `interagency' improvements beyond 
`governmental' improvements. The improvements we seek will be fully 
realized when nongovernmental organizations and the private sector 
craft common operational goals and align execution to achieve those 
common goals.
    Mr. Skelton. At the hearing, Admiral Giambastiani gave a concrete 
example of interagency successes. He did not give an example of 
interagency failure. Please give one example of a recent interagency 
failure and then give lessons learned from the examples of success and 
failure. How are ``lessons-learned'' institutionalized among the JCS 
staff? Does the JCS staff coordinate lessons-learned with other 
organizations? Does JCS staff coordinate on other organizations' 
lessons?
    Admiral Giambastiani. While the United States possesses the most 
capable and responsive government in the world, there are clearly many 
opportunities for improvement, particularly in the area of interagency 
coordination. Last summer's Hurricane Katrina strike highlighted many 
areas that deserve our attention.
    White House and Congressional Reports on the federal government's 
response to Hurricane Katrina noted that the planning process for 
domestic crises within the federal government needs significant 
improvement. Additionally, these reports recommended DOD support the 
development of enhanced operational planning capabilities within DHS 
and FEMA in order to better predict detailed requirements and plan for 
specific actions needed to respond to future disasters.
    DOD is actively engaging DHS and other interagency partners to 
improve pre-crises planning, preparation, and response capabilities. 
Prior to the landfall of Hurricane Katrina, DOD initiated a process to 
assign Defense Coordinating Officers (DCOs) and five-member Defense 
Coordinating Elements (DCEs) in each of the ten FEMA regional offices. 
The DCOs/DCEs will enhance interagency coordination of the military 
resources supporting crises responses by providing a single DOD point 
of contact at a deployed federal Joint Field Office and current FEMA 
regional offices.
    Additionally, in coordination with DHS, FEMA and DOT, DOD has 
developed 18 pre-scripted Requests for Assistance (RFAs) to expedite 
the provision of DOD support to civil authorities during a disaster 
response. These RFAs address DOD support for transportation, 
communications, public works and engineering, mass care, housing and 
human services, resource support, public health, and medical services.
    DOD has also deployed planners to conduct vulnerability assessments 
in the Gulf Coast states with emphasis on Louisiana. This assessment 
effort was integrated into an interagency effort led by FEMA. DOD 
operations and logistics planners are assisting DHS with the 
development of response plans for the 2006 severe weather season. The 
resulting DHS plans will focus on the provision of logistics to an area 
impacted by a major or catastrophic disaster.
    The post-Hurricane Katrina initiatives described above demonstrate 
both how DOD is working to enhance its performance, based upon the 
findings derived from the Department's internal lessons learned 
processes, as well as how DOD is assisting and supporting its 
interagency partners with their issue resolution efforts.
    Finally, the Joint Staff J-7 is tasked to oversee the CJCS's 
lessons learned program. Lessons are institutionalized within the DOD 
by the establishment of lessons learned programs by the Services, 
Combatant Commands, Combat Service Agencies, and other DOD agencies.
    While DOD does not coordinate lessons learned with other 
organizations we can share data with them. DOD is developing the Joint 
Lessons Learned Information System (JLLIS) that will more efficiently 
and effectively permit the sharing of observations, findings, 
recommendations and lessons learned between the Services, Combatant 
Commands, Combat Service Agencies, and other DOD agencies. In the 
aftermath of Hurricane Katrina, DOD is expanding its working 
relationships to link with the DHS and numerous disaster response and 
interagency organizations. In time, JLLIS will be linked to these 
organizations via the Internet. Although, the DOD does not coordinate 
on other organizations' lessons, we can mine the data as it becomes 
available.
    Mr. Skelton. What interagency issues does the JCS believe Congress 
should take up first and why? What elements in legislation would be 
necessary for JCS or new national security partners (domestic or 
foreign), to improve interagency capacities to respond to current and 
future national security complex contingencies, challenges and 
opportunities? What about within JCS?
    Admiral Giambastiani. Areas where the Congress could help 
immediately include:
    Providing the legal impetus and financial resources that will 
enable the USG to sustain the momentum it has generated thus far in 
developing a capability to plan for and conduct stabilization & 
reconstruction operations. The Stabilization & Reconstruction Civilian 
Management Act of 2006 and the authorities provided in the Senate 
version of the FY07 NDAA (sections 1206, 1207 and 1208) have our strong 
support. All of the investment in the stabilization & reconstruction 
field is transferable to other operational and functional areas. We can 
not afford to have that set back this far into our work by the loss of 
legitimacy that a fourth pass on these bills would likely signal.
    Investing in human capital for the long term. The resources 
required for many of our interagency partners to begin developing 
civilian deployable expert capacity should be high on the list of 
things needing attention. We also need to enable our interagency 
partners to build into their structure rotational assignments of 
personnel for formal education, training, and interagency duty. This is 
linked to my previous response on broader recommendations and bringing 
together the executive and legislative branches in a collaborative 
effort to examine the complete range of possibilities for change to 
both our interagency processes and our national security workforce. The 
JCS advocates commencing this work as soon as practical.
    Adjusting authorities to remove barriers and facilitate cooperation 
between agencies. The recent legislation enabling budget transfer 
between DOD and DOS for stability operations was an excellent start. We 
need further legislation that encourages and rewards interagency 
cooperation, especially in the area of security assistance.
    With a longer horizon, Congress should consider expanding the 
Quadrennial Defense Review to a Quadrennial Security Review. By 
mandating a requirement to include a broader Quadrennial Security 
Review, Congress would create one of the levers that can move the 
national security community of the USG to integration. A Security, 
rather than a Defense Review, could generate the intellectual capital 
needed to guide the nation's investments in our future Inter-Agency 
capabilities.
    Mr. Skelton. In order to improve the interagency process and 
operations, does the JCS believe a government change on the order of a 
new National Security Act (since 1947 Act was government's response to 
the Cold War) or a second Goldwater Nichols-like reform is necessary? 
If not, why not? If so, what should be the scope of that effort (what 
changes to personnel systems, organizational structure, command and 
control arrangements, acquisition, etc. are necessary)?
    Admiral Giambastiani. Yes, I think it is time for a sweeping change 
on the order of Goldwater-Nichols. The scope of what is called for in 
meeting our national security requirements in the 21st Century requires 
an unprecedented degree of USG coordination and synchronization--indeed 
it demands integration. We need new legislation to integrate the 
efforts of civilian components, to integrate civil-military strategy 
development and planning, and to develop a whole-of-government approach 
to contingency response that international partners would be willing to 
utilize.
    The major changes needed fall into the categories of strategic 
alignment; planning; organization, to include command & control 
arrangements; and personnel. However, the full scope of the effort 
ought to be developed by the executive-legislative partnership. Without 
a comprehensive, across-government approach, we will not achieve the 
changes required to succeed in the new security environment.
    Strategic Alignment: The process by which the departments and 
agencies of the USG formulate policy, develop strategy, and plan for 
contingencies must lead to unity of purpose toward achieving the 
nation's strategic goals and enable unified action during execution. 
Some of the ways to achieve this include: a Quadrennial Security Review 
and preparation and implementation of National Strategic Planning 
Guidance, which would inform the USG of the President's contingency 
priorities and convey his direction on how to prepare for those 
contingencies.
    Planning: The process by which the departments and agencies of the 
USG formulate policy, develop strategy, and plan for contingencies must 
also lead to unity of purpose toward the nation's strategic goals and 
enable unified action during execution. Interagency planning must 
become institutionalized in the USG. The Goldwater-Nichols like work 
should consider all the dimensions of developing and sustaining this 
capability.
    Organization: It may be time to look at the equivalent of a Unified 
Command Plan for the government as a whole. As the Unified Command Plan 
establishes the geographic areas of responsibility, missions, 
responsibilities, functions, and force structure for the combatant 
commands, the Goldwater-Nichols like reform effort ought to consider 
how this unified global approach might provide a model for the USG as a 
whole.
    Personnel: As stated earlier, the USG needs an interagency culture 
and personnel system that brings about results as profound and 
important as the original Goldwater-Nichols Act did in establishing 
today's joint military force. Investment in human capital is the sine 
quo non of success in this endeavor.
    Mr. Skelton. In the 1986 Goldwater-Nichols Act the CINCs (now 
COCOMs) were given direction of military forces in the field. In 
testimony, Ambassador Crumpton said in states which we are at war and 
in non-states (state with no recognizable ruling/sovereign authority), 
military leaders should be the ``quarterback'' for interagency plans 
and operations. In states with which the U.S. is not at war, he 
asserted that the Ambassador is and should be the ``quarterback''. By 
analogy, one might then assume departments/agencies in Washington would 
perform the mission to organize, train, and equip (as do military 
services) to provide forces/personnel and have administrative control 
over them, while the military or ambassador ``quarterback'' have 
tactical/operational control of forces/personnel in the field (for 
example, some have suggested that USAID should organize, train and 
equip AID personnel to serve in the field under some other 
department's/agency's direction). Does the JCS agree this is a workable 
construct for interagency planning and operations in the field? If not, 
provide an alternative suggestion for a chain of command/command 
relationships.
    Admiral Giambastiani. In principle, Ambassador Crumpton's proposal 
is one of a number of potentially workable constructs for operations. 
General Pace and I agree that this subject needs to be addressed with a 
level of effort commensurate to the preparation of the original 
Goldwater-Nichols legislation.
    The analogy between Services as force providers to the unified 
commands and Departments/Agencies of the federal government providing 
personnel to unified interagency task forces with ``quarterback'' 
responsibility and authority seems to be valid. A well understood 
military analogy is that of the ``supporting'' and ``supported'' 
commanders. Routinely, for operations around the world, a Combatant 
Commander (COCOM) with the lead responsibility is designated the 
``supported'' COCOM and other Combatant Commanders are designated as 
``supporting'' COCOMs. As CDR USJFCOM, I was most frequently a 
``supporting'' COCOM and we measured our effectiveness by how 
successful we could make the ``supported'' COCOM. A similar 
understanding of the ``supported'' and ``supporting'' roles and an 
embrace of the military culture that employs them can be useful as we 
attempt to build unity of command and unity of effort in our 
interagency operations.
    I would like to see a national-level concept for unified action 
developed and, within that concept, the organizational structures and 
``command'' relationships can be thought through, tested, evaluated and 
experimented at the national level. This is something entirely new. We 
do this all the time at United States Joint Forces Command for things 
like the ``Military Support to Unified Action'' concept, which is 
currently in development. But military support is only a part of the 
highest order concept, the concept that describes how the USG--and its 
universe of partners--will act in the future security environment.
    Mr. Skelton. In testimony, Admiral Redd compared the NCTC to the 
Joint Staff; it does strategic operational planning and assigns tasks 
for CT operations but does not have command authority. First, does the 
government need an organization like the Joint Staff or NCTC for 
broader interagency planning and assigning of roles and missions, or do 
we already have a government organization that can perform this role? 
Second, does the government then need a command structure like that of 
the regional and functional COCOMs to actually command/direct personnel 
in the field to fulfill interagency tasking?
    Admiral Giambastiani. I believe the USG does need an organization 
that can conduct strategic operational planning and assign tasks and 
activities to USG departments and agencies for broad efforts in the war 
on terrorism.
    Mr. Skelton. Last year the DOD and SOCOM insisted they needed 
additional funding and authorities to lead the military fight in the 
GWOT. The special authorities granted have never been used. According 
to the New York Times (NYT), General Downing's classified report 
criticized the DOD and NSC bureaucracy for ``not creating ways to 
answer Socom's [sic] real-time needs, forcing the command to navigate 
plodding bureaucratic channels whenever it wanted to adjust course.'' 
This makes fighting an agile enemy impossible. What has been done by 
the DOD and NSC to remedy this?
    At the hearing, Admiral Giambastiani disagreed with General 
Downing's reported findings and seemed to indicate that his information 
was ``dated''. Explain that point of view further considering it is a 
recent report and that ``Pentagon officials'' interviewed by the New 
York Times seemed to agree with these findings?
    Admiral Giambastiani. Thank you for the opportunity to clarify the 
testimony I gave at the hearing.
    During our thorough review of General Downing's Special Operations 
Force Assessment, it became apparent that many of the assertions made 
in the report were issues that no longer required further attention. 
The Quadrennial Defense Review had addressed nearly all of the resource 
and funding issues raised in the report to the full satisfaction of US 
Special Operations Command. Many other recommendations in the report 
had already been completed or were in the process of being completed. 
Many, but not all had been initiated by USSOCOM. Additionally, we are 
currently addressing a small number of issues raised in the report, in 
coordination with USSOCOM, with specific Action Plans designed to get 
us to an effective solution.
    Additionally, the Chairman has instituted a process to report and 
monitor the top three staffing priorities from all of the Combatant 
Commands, to include USSOCOM, to ensure their highest priorities 
received the appropriate level of attention.
    Mr. Skelton. A January 2006 CRS Report on Homeland Security and the 
establishment of NORTHCOM to fight terrorism at home claims, 
``questions remain concerning interagency relationships and information 
sharing.''
    a. Given NORTHCOM HQ, the Domestic Watch Center (with links to the 
Homeland Security Operations Center), Standing Joint Task Force 
Headquarters North, Joint Task Force Headquarters North, Joint Task 
Force Civil Support, Task Force East--Consequence Management, and a 
Joint Interagency Coordination Group (consisting of 46 agencies), the 
assignment of 65 DOD personnel to DHS Headquarters, NORTHCOM's 
provision of planning and liaison personnel assigned to DHS regional 
components, emergency assignment of NORTHCOM senior military officers 
to regional FEMA headquarters, and the NORTHCOM assignment of military 
officers to the operations centers of components of DHS to coordinate 
tactical operations, why do problems with interagency coordination 
persist (e.g., Katrina)?
    Admiral Giambastiani. The NORAD-USNORTHCOM Command Center (formerly 
the Domestic Warning Center) in conjunction with NORAD-USNORTHCOM Joint 
Interagency Coordination Group, works with interagency partners to 
enhance collective capabilities. They continue to work the challenges 
associated with interagency and intergovernmental coordination with 
literally hundreds of different federal, state, local, tribal and non-
governmental agencies and organizations as a priority effort.
    Interagency coordination is more than a command challenge--it is a 
multi-agency challenge which will take long-term consistent attention 
and effort to solve. Progress has been made, but much still needs to be 
done. We see the following as essential if we are to eliminate most of 
the problems with interagency coordination in the homeland security and 
homeland defense arena:

    <bullet> Additional agency representatives at each homeland 
security and homeland defense agency
    <bullet> A standardized interagency training and certification 
program
    <bullet> An interagency common operating picture
    <bullet> Full communications interoperability across all levels of 
government
    <bullet> A collaborative and cooperative planning effort to support 
homeland security and homeland defense
    <bullet> A fully funded and robust National Exercise Program

    Mr. Skelton. Is there a problematic redundancy or duplication of 
effort among these numerous organizations?
    Admiral Giambastiani. There is a duplication of effort among these 
organizations because the scope of homeland defense and civil support 
is so broad. Redundancy of effort, while at times inefficient, can also 
reduce risk. Having the lead primary agency publish plans identifying 
how and when DOD support will be provided and employed (clear tasks and 
purposes) will lead to better interagency coordination and planning. 
Primary agencies are developing a better understanding of the limits of 
their capabilities and are identifying the point at which they will 
likely ask for DOD support. As these points are defined, redundancy or 
duplication will be reduced.
    USNORTHCOM routinely assesses and exercises command elements and 
components to look for ways to enhance operations and mission 
capabilities. However, considering USNORTHCOM's continuing and 
increasing mission requirements (e.g., pandemic influenza, border 
security, 2006 hurricane season support, etc.), any consolidation of 
their headquarters and/or component elements will be carefully 
considered because mission failure in the homeland is not an option. 
Seeking efficiencies within limits, however, also makes sense.
    Mr. Skelton. It appears that there is a lot of management overhead 
that does not perform very well. Could that be reduced while at the 
same time robusting operational capacity?
    Admiral Giambastiani. USNORTHCOM is optimized to serve as an 
operating headquarters to direct defense of its Area of Responsibility 
and to execute Defense Support of Civil Authorities, when directed. The 
USNORTHCOM Concept of Operations and Battle Staff Standard Operating 
Procedures reflect lessons learned from Joint Forces Command Millennium 
Challenge 2002 as well as a series of exercises leading to full 
operational capability evaluation in October 2004. USNORTHCOM's 
standing Joint Task Forces and component commands similarly reflect 
lean commands focused on the highest priority mission set. USNORTHCOM 
is careful of ``dual-taskings'' and the importance of collaboration to 
ensure efficiency. They use the Defense Readiness Reporting System to 
maintain a monthly assessment of readiness to perform joint mission 
essential tasks.
    Mr. Skelton. What measures have been put in place or planned to 
improve NORTHCOM's and its partners' interagency planning and 
operations deficiencies?
    Admiral Giambastiani. Key measures include the establishment of a 
National Exercise Program with participation from the Department of 
Defense, Department of Homeland Security, other National Response Plan-
associated organizations, as well as state, local and tribal government 
agencies. In addition, USNORTHCOM has established an Interagency 
Coordination Officer training and certification program to standardize 
and formalize the training, capabilities, and credibility of its 
personnel.
    USNORTHCOM has also implemented the following initiatives outlined 
in the Quadrennial Defense Review and Building Partnership Capabilities 
Execution Roadmap:

    <bullet> Detailing personnel to other agencies to support those 
agencies' efforts to build their planning and deployment capabilities
    <bullet> Expanding DOD planning and training programs to civilian 
planners
    <bullet> Developing an Interagency National Security Officer corps 
designed to develop a cadre of government personnel knowledgeable and 
more capable in interagency communication and coordination
    <bullet> Promoting DOD participation in the National Exercise and 
Evaluation Program and the National Security Exercise Program

    Mr. Skelton. b. How far has NORTHCOM progressed in building 
relationships with state, local and tribal levels?
    Admiral Giambastiani. USNORTHCOM's primary interagency focus is at 
the federal level; however, they have a continuing program of 
interagency engagement and enhancement with regional, state, local, and 
National Guard partners. USNORTHCOM has cultivated relationships at the 
state and local levels and with non-governmental organizations through 
their Joint Interagency Coordination Group.
    Mr. Skelton. Has there been sufficient variety in exercise 
localities to test the relationships and the system of planning and 
operational coordination?
    Admiral Giambastiani. USNORTHCOM continues to look for ways to 
increase participation by regional, state, local, and tribal agencies 
in the National Exercise Program to strengthen our nation's response 
capabilities.
    To date, NORAD and USNORTHCOM have planned and/or conducted 
exercises in/with 27 states, 9 of the 10 Federal Emergency Management 
Agency Regions, 4 Canadian Provinces, and Public Safety and Emergency 
Preparedness Canada. Over 150 federal, state, local and multinational 
agencies and non-governmental organizations have participated in NORAD 
and USNORTHCOM exercises. Each year, USNORTHCOM and NORAD sponsor five 
large-scale exercises and over 30 smaller exercises. Exercise scenarios 
have simulated a wide range of homeland defense and civil support 
challenges, to include: threats from all domains, missile defense, 
consequence management operations, nuclear counterproliferation, 
protection of critical infrastructure, maritime interception 
operations, bioterrorist attacks, other weapons of mass destruction 
attacks, and natural disasters. USNORTHCOM also integrates potential 
disaster scenarios, such as pandemic influenza, into their training and 
exercises.
    Mr. Skelton. Have no-notice or short-notice exercises been planned 
in such a way to really test communications and operational capacity?
    Admiral Giambastiani. Deployments of Quick Reaction Forces and 
Rapid Response forces have been exercised in 2004 and 2005 Emergency 
Deployment Readiness Exercises. However, we have not implemented, nor 
do we have funding to support, any full no-notice or short-notice 
exercise programs to respond to the broader range of possible incidents 
such as the 15 Department of Homeland Security Threat Scenarios.
    Mr. Skelton. Mr. O'Connell's (DOD) testimony asserted that military 
JIATFs are a model for integrated operations. Is there an example of a 
JIATF that has a broader number of agency subscribers and a broader 
mission that is having success in the field? To what can their success 
be attributed? Can JCS make a recommendation on how to adopt/adapt this 
model more broadly and at more levels to enhance interagency planning 
and operations?
    Admiral Giambastiani. Mr. O'Connell is precisely correct when he 
asserts that JIATFs provide a model of the synergistic possibilities of 
close interagency coordination. I offer the following example of just 
such an organization.
    JIATF-South is a Combined, Joint, Interagency Command consisting of 
representatives from eleven foreign countries, all U.S. Armed Services 
(including the USCG) and the DOD intelligence agencies, the Departments 
of Justice (DOJ) and Homeland Security (DHS), plus the Central 
Intelligence Agency.
    With USG agency representatives and International Liaison Officers 
under one director, JIATF-South serves as a model for interagency and 
international cooperation. The entire team is focused on a common goal, 
ensuring unity of command and effort. Manned and led by personnel from 
the various agencies and countries with a counter-drug mission, the 
JIATF organizational structure embodies the force-multiplying effect of 
a task force.
    The JIATF model, focused on long-term improvement of international 
or domestic cooperation and capacity building, can: (1) maximize scarce 
U.S. resources; (2) integrate military, intelligence, and law 
enforcement activities; (3) facilitate execution of the WOT by building 
host-nation capacities to address transnational threats; (4) maximize 
partner nation and/or interagency cooperation; and (5) support 
Combatant Command Security Cooperation objectives and broader USG 
objectives.
    Mr. Skelton. What is the division of responsibility between the 
NCTC's strategic operational planning component, the National Security 
Council (NSC) and the Homeland Security Council (HSC)?
    Admiral Redd. The NSC and HSC staffs are responsible for organizing 
and managing the process whereby policy and strategy are developed and 
approved. NCTC does not make strategy or policy, but works closely with 
NSC and HSC to ensure that the appropriate plans are developed to 
implement the policies and strategies that emerge from the NSC and HSC. 
Under the terms of the Intelligence Reform and Terrorism Prevention Act 
(IRTPA), NCTC is responsible for conducting strategic operational 
planning for Counterterrorism (CT) activities. To do this, NCTC leads 
an interagency planning effort to develop strategic goals, objectives 
and sub-objectives, and ultimately, tasks that are assigned to a lead 
agency or department in support of the national strategy.
    Mr. Skelton. At the hearing, Admiral Redd gave a concrete example 
of interagency success. He did not give as concrete an example of 
interagency failure. Please give one example of a recent interagency 
failure and then give lessons learned from both the examples of success 
and failure. How are ``lessons learned'' institutionalized in the NCTC 
organization? Does NCTC coordinate your lessons-learned with other non-
Intelligence Community (IC) organizations? Does NCTC coordinate on 
other non-IC organizations' lessons?
    Admiral Redd. You may recall the pre-election threat of 2004 during 
which the Terrorist Threat Integration Center (before NCTC), the 
Central Intelligence Agency and Department of State (DOS) all provided 
threat warnings to U.S. policy- and decision-makers. All three reports 
reached different conclusions, and due to the variance between the 
three reports, U.S. officials were left to interpret the information 
and draw their own conclusions. With respect to lessons learned, NCTC 
has subsequently established a line of community products that speak 
with a single voice for threat warning, while offering U.S. officials 
alternative views and perspectives.
    The CT community is continually examining its processes and 
refining its practices to become more effective, and indeed more 
efficient, in fulfilling its important mission. Our collective effort 
in the information-sharing realm is a case in point, where multiple 
agencies and departments have worked to ensure the dissemination of 
more information, at lower classification levels, to relevant federal, 
state, and local officials. An important focus of this work has been to 
better manage the handling of threat reporting to ensure that 
actionable intelligence gets to those who need it in a focused and 
coordinated fashion. These efforts have led to important improvements 
in interagency coordination and dissemination practices, and better 
communication with the law enforcement and homeland security 
communities.
    While NCTC and our community partners work on nearly a daily basis 
to improve processes based on lessons learned, we are also establishing 
a formal lessons learned capability. NCTC's Mission Management (MM) 
Directorate has recently launched the first of our lessons learned 
studies, focused on the IC's counterterrorism support to the Torino 
Winter Olympics. This effort involves outreach not only to multiple 
agencies and departments of the IC, but also U.S. Government (USG) 
entities more broadly to capture best practices and develop 
recommendations to improve IC support to future special events. For 
this effort, our MM Directorate has collaborated with the Directorate 
of National Intelligence's (DNI) Lessons Learned Center and partnered 
with the Center for the Study of Intelligence. The results of the 
Torino study will be shared broadly within the IC, and we will be 
working with our interagency Counterterrorism Advisory Group to develop 
plans for future lessons learned studies, which can be focused on 
interagency shortfalls and problem areas. We will continue to reach out 
to the IC and beyond, as necessary, to improve our counterterrorism 
efforts, and to support lessons learned studies conducted by others 
upon their request.
    Mr. Skelton. What interagency issues does the NCTC believe Congress 
should take up first and why? What elements in legislation would be 
necessary for the NCTC or new national security partners (domestic or 
foreign), to improve interagency capacities to respond to current and 
future national security complex contingencies, challenges and 
opportunities? What about within the NCTC?
    Admiral Redd. The IRTPA provided the DNI and NCTC with a number of 
tools to improve interagency capabilities to respond to national 
security contingencies, challenges, and opportunities. Examples range 
from NCTC's USG-wide strategic operational planning responsibilities 
for the global war on terror to the DNI's budget and tasking 
authorities. A number of USG-wide information sharing initiatives are 
also underway. I believe we need to assess the effectiveness of these 
tools before we consider additional far-reaching legislative 
initiatives. The Administration has made some more modest proposals, 
however, in its FY 2007 intelligence authorization submission.
    At this point in time, Congress can provide the greatest assistance 
by ensuring that NCTC and its partners have the resources (including 
facilities and personnel) to facilitate NCTC's fulfillment of its 
statutory responsibilities and the USG success in the War on Terrorism.
    Mr. Skelton. In order to improve the interagency process and 
operations, does the NCTC believe a government change on the order of a 
new National Security Act (since the 1947 Act was government's response 
to the Cold War) or a second Goldwater Nichols-like reform is 
necessary? If not, why not? If so, what should be the scope of that 
effort (what changes to personnel systems (clearances), organizational 
structure, command and control arrangements, acquisition, etc. are 
necessary)?
    Admiral Redd. The IRTPA was a fundamental reorganization of the IC, 
close, if not equal, in magnitude, to the passage of the National 
Security Act of 1947 and the Goldwater-Nichols reform in the Department 
of Defense. The DNI now has substantial authority to effect change in 
the areas of personnel, acquisitions, and security across the IC. For 
example, the DNI recently adopted a joint duty directive for the IC, 
making service in more than one element of the IC a requirement for 
certain promotions and positions.
    In addition, as authorized by the IRTPA, the NCTC is responsible 
for ``strategic operational planning'' to develop interagency 
counterterrorism plans that integrate all instruments of national 
power. This mission represents a bold and unprecedented approach to 
integrating the efforts across the full spectrum of Executive Branch 
departments and agencies for countering terrorism. NCTC's Directorate 
of Strategic Operational Planning's (DSOP's) efforts to develop 
interagency plans have already involved hundreds of departmental 
planners and will have far reaching and long lasting implications for 
how the United States executes the War on Terrorism.
    In light of the significance of these new authorities and 
responsibilities, it is important to allow time to evaluate their 
effectiveness before consideration of additional significant government 
restructuring.
    Mr. Skelton. In the 1986 Goldwater-Nichols Act the CINCs (now 
COCOMs) were given direction of military forces in the field. In 
testimony, Ambassador Crumpton said in states with which we are at war 
and in non-states (states with no recognizable ruling/sovereign 
authority), military leaders should be the ``quarterback'' for 
interagency plans and operations. In states with which the U.S. is not 
at war, he asserted that the Ambassador is and should be the 
``quarterback''. By analogy, one might then assume departments/agencies 
in Washington would perform the mission to organize, train and equip 
(as do the military services) to provide forces/personnel and have 
administrative control over the [n], while the military or ambassador 
``quarterback'' or have tactical/operational control of forces/
personnel in the field (for example, some have suggested that USAID 
should organize, train and equip AID personnel to serve in the field 
under some other department's/agency's direction). Does the NCTC agree 
this is a workable construct for interagency planning and operations in 
the field? If not, provide an alternative suggestion for a chain of 
command/command relationships.
    Admiral Redd. We defer to DOS and other agencies/departments who 
have personnel stationed abroad regarding the roles and 
responsibilities for Ambassadors in the field. However, we can note 
that your analogy regarding command relationships, applied more 
broadly, also bears on the work we have underway in strategic 
operational planning. In this role, as defined in the IRTPA, we are 
producing the government's blueprint for the War on Terrorism, 
integrating all instruments of national power and influence. In this 
capacity, NCTC is leading a major interagency effort to develop a 
counterterrorism roadmap and coordinate the efforts of dozens of USG 
entities. While NCTC is leading this important planning effort, its 
role does not extend to directing the actual execution of other 
departments' and agencies' counterterrorism activities. Instead, these 
organizations appropriately retain the mandate based on their statutory 
responsibilities, and necessary flexibility to carry out relevant tasks 
and activities--benefiting from NCTC's planning leadership.
    Mr. Skelton. In testimony, Admiral Redd compared the NCTC to the 
Joint Staff; it does strategic operational planning and assigns tasks 
for CT operations but does not have command authority. First, does the 
government need an organization like the Joint Staff or NCTC for 
broader interagency planning and assigning of roles and missions, or do 
we already have a government organization that can perform this role? 
Second, does the government then need a command structure like that of 
the regional and functional COCOMs to actually command/direct personnel 
in the field to fulfill interagency tasking?
    Admiral Redd. As recommended by the National Commission on 
Terrorist Attacks Upon the United States, and as Congress recognized by 
authorizing the NCTC in the IRTPA, the Executive Branch needed an 
organization modeled on the Joint Staff to develop interagency plans 
that integrate all instruments of national power for countering 
terrorism.
    The Commission did not recommend that the NCTC have any command 
authority with respect to ``strategic operational planning,'' and the 
IRTPA states explicitly that the NCTC does not have authority to direct 
the execution of operations. The Executive Branch is currently 
developing the ``strategic operational planning'' process in order to 
fulfill the Commission's vision and Congress's mandate. Accordingly, a 
new Executive Branch command structure is not needed at this time.
    Mr. Skelton. What relationship does the NCTC have with NORTHCOM?
    Admiral Redd. The NCTC Operations Center (NCTOC) has continuous 
daily contact with the NORAD/NORTHCOM (N/NC) Operations/Intelligence 
Watch (OIW) in Cheyenne Mountain; the teams on duty have a threat-
related conversation with the OIW at least once every 12 hours. In 
addition, NCTC directly supports NORTHCOM during real-world aviation 
and maritime operations.

Specifically:

    NORTHCOM personnel access the NCTC Situation Report (SITREP) and 
Threats to US Interests Worldwide (Threat Matrix) through NCTC Online 
on a daily basis.
    NORTHCOM participates in a nightly NCTC-chaired video 
teleconference with national-level operations and watch centers to 
discuss potential terrorist threats.
    NCTC works with the NORTHCOM J7 and J2 in planning NCTC 
participation in their exercises and interacts with NORTHCOM during 
exercises hosted by another command.
    DOD is included in the development of interagency counterterrorism 
plans by NCTC's Strategic Operational Planning Directorate. As a 
result, NORTHCOM's views are represented in the formulation of 
strategic operational plans.
    NORTHCOM and NCTC regularly participate in visits to each other's 
locations to collaborate on issues of common concern.
    Mr. Skelton. The Chairman of the Joint Chiefs of Staff recently 
testified before the House Armed Services Committee to the following:

     ``The Goldwater-Nichols legislation established a system of 
incentives and requirements to foster Jointness among military 
officers. We need to find similar ways to encourage interagency 
expertise. Rewarding interagency work experience, education, and 
training will facilitate better synergy between departments. Likewise, 
we need and should reward individuals and agencies that rapidly deploy 
and sustain civilian expertise in tandem with our military. Shared 
deliberate and crisis planning capacity among our interagency partners 
will also improve our Nation's readiness for contingencies.''

    Are there issues that Congress could help resolve on deploying non-
volunteer civilians to complex contingencies and war zones including 
health and life insurance issues and medical care relative to any 
injuries sustained in theater on return to CONUS?
    Ambassador Crumpton. The Department of State already has numerous 
opportunities and incentives for building interagency experience among 
our Foreign Service and Civil Service personnel. We currently have 
approximately 165 permanent details to 28 agencies, including 50 
details to the Department of Defense. Additional details are 
established on an ad hoc basis. Through new requirements for promotion 
into the Senior Foreign Service, members of the Foreign Service are 
especially encouraged to spend at least one year of their mid-level 
career on detail to another agency.
    The Department also offers approximately 138 opportunities for 
long-term training at 30 institutions, such as the National Defense 
University, the various other War Colleges and Commands, Princeton, 
Harvard and other academic institutions to promote interagency 
relationships.
    Additionally, the core mission of the Coordinator for 
Reconstruction and Stabilization at State (S/CRS) is to lead, 
coordinate and institutionalize U.S. Government civilian capacity to 
prevent or prepare for post-conflict situations, and to help stabilize 
and reconstruct societies in transition from conflict or civil strife, 
so they can reach a sustainable path toward peace, democracy and a 
market economy. S/CRS has been charged with leading the coordination of 
USG stabilization and reconstruction efforts. Currently, S/CRS staff 
come from the State Department, USAID, Office of the Secretary of 
Defense, Central Intelligence Agency, Army Corps of Engineers, Joint 
Forces Command, Joint Chiefs of Staff, and the Treasury Department.
    In response to your ultimate question regarding benefits for 
civilians deployed to war zones, we have been carefully assessing this 
issue for some time. We appreciate the language in the Supplemental 
that provides additional personnel authorities related to Iraq and 
Afghanistan (Sections 1602 and 1603). Another issue that we have been 
striving to resolve is how the Worker's Compensation System cares for 
covered employees injured in war zones, especially upon return to the 
United States. We will continue to discuss improvements with our 
colleagues at the Department of Labor, which administers the program.
    Mr. Skelton. At the hearing, Ambassador Crumpton gave a concrete 
example of an interagency success. He did not give as concrete an 
example of an interagency failure. Please give one example of a recent 
interagency failure and then give lessons learned from both examples of 
success and failure. How are ``lessons learned'' institutionalized in 
State? Does State coordinate lessons-learned with other organizations? 
Does State coordinate on other organizations `lessons?'
    Ambassador Crumpton.

<bullet> Just a few months before the 9/11 attacks, in summer of 2001, 
an eventual hijacker Khalid al Mihdhar, a Saudi national, had his U.S. 
visa renewed. Despite intelligence dating back to late 1999 and early 
2000 that linked him to al-Qaeda and the 1998 embassy bombings, Mihdhar 
was not on the State Department's ``watch list.'' If he had been, he 
would not have been issued the visa. The failure to include him on the 
watch list is attributable to mistakes made by several agencies and was 
a harsh lesson learned that the USG's multiple watch lists needed to be 
consolidated, so that all pertinent information regarding a suspect 
individual could be readily accessible by those who needed it to 
protect the United States, our interests, and our friends and allies. 
This effort is ongoing. We learned that it is not enough for each 
agency individually to be doing its job; but that those efforts have to 
be woven together into a seamless counterterrorism effort.
<bullet> From the positive example I cited at the hearing, we have 
learned the importance of having all elements of statecraft coming 
together, both in the field and in Washington. During that incident in 
the spring of 2002, in southern Afghanistan, a CIA source identified 
enemy movement out of a village, predicted at dawn. U.S. Navy responded 
with a P-3 surveillance aircraft over that village, but could not take 
on the mission. Therefore, the mission was handed off to a CIA-operated 
UAV that, in turn, was able to inform a ground team consisting of CIA, 
special forces and Afghans, who initially intercepted the enemy convoy 
as it left the village, which bought time for a Navy Seal team to 
deploy from Bagram and, working with the UAV platform, destroy the 
convoy.
<bullet> The lessons from our mistakes and successes are factored into 
our calculus as we work to create new policies or further existing 
ones. This is how we work with other agencies, as well as how we 
approach international bilateral and multilateral relations and 
negotiations.
<bullet> As an example of how these lessons have been 
institutionalized, the Office of the Coordinator for Counterterrorism 
(S/CT) includes individuals from other bureaus within the State 
Department, the CIA, FBI, DOD and DHS as well as on loan from the 
government of one of our closest allies in the War on Terror. These 
staff members work closely with others in S/CT, and are also in 
constant contact with their home agencies and organizations.
<bullet> We also work with the Foreign Service Institute on developing 
curriculum on counterterrorism issues, including assisting with case 
studies.
<bullet> We engage in interagency outreach, as well as extensive 
speeches and seminars. I regularly speak in interagency for a, such as 
the Joint Military Intelligence College, U.S. Special Operations 
Command (SOCOM), U.S. government-sponsored think tanks, and others. I, 
of course, also lead interagency teams in Regional Strategic Initiative 
(RSI) conferences and in bilateral exchanges.
<bullet> In addition, S/CT is represented, including at senior levels, 
in numerous interagency policy coordinating committees and working 
groups. These working groups meet daily, weekly or biweekly to discuss 
counterterrorism and homeland security issues of concern, as well as 
current and ongoing policies to target the terrorist threat.

    Mr. Skelton. In order to improve the interagency process and 
operations, does State believe that a government change on the order to 
a new National Security Act (since the 1947 Act was government's 
response to the Cold War) or a second Goldwater-Nichols-like reform is 
necessary? If not, why not? If so, what should be the scope of that 
effort (what changes to personnel systems, organizational structure, 
command and control arrangements, acquisition, etc., are necessary)?
    Ambassador Crumpton. Thank you for seeking our views on these 
important questions. I do not think it would be appropriate for me to 
propose independently to Congress or to comment on large-scale 
governmental reform, since that reform would possibly involve large 
parts of the Department as well as other agencies within the federal 
government. Looking for ways that we can improve is a constant and on-
going process. For example, I participate regularly in interagency 
meetings where we often discuss and frequently implement ideas to 
improve the interagency process. In addition, the State Department 
routinely expresses its views on possible or pending legislation at the 
appropriate time and through appropriate channels, in coordination with 
other interested executive branch agencies. We are not in a position at 
this time to offer comments on possible legislation, which would have 
wide-ranging effects within the executive branch.
    Mr. Skelton. What interagency issues does State believe Congress 
should take up first and why? What elements in legislation would be 
necessary for State or new national security partners (domestic or 
foreign), to improve interagency capacities to respond to current and 
future national security complex contingencies, challenges and 
opportunities? What about within State?
    Ambassador Crumpton. Thank you for your support on these important 
issues. In September of this year, the Administration released ``9/11 
Five Years Later: Successes and Challenges''. This report is a 
comprehensive review of what has thus far been accomplished and what 
remains to be done in the area of national security in the era after 
the 9/11 attacks. While this document does not specifically address 
possible Congressional action, I believe it does establish quite 
clearly what, as a nation, our priorities should be. While I do not 
have specific suggestions at this time, I am confident that the State 
Department and other interested executive branch agencies will continue 
to make clear our legislative priorities to Congress as specific needs 
and issues arise.
    Mr. Skelton. In the 1986 Goldwater Nichols Act, the CINCs (now 
COCOMs) were given direction of military forces in the field. In 
testimony, Ambassador Crumpton said in states with which we are at war 
in and in non-states (states with no recognizable ruling/sovereign 
authority), military leaders should be the ``quarterback'' for 
interagency plans and operations. In states with which the U.S. is not 
at war, he asserted that the Ambassador is and should be the 
``quarterback.'' By analogy, one might then assume departments/agencies 
in Washington would perform the mission to organize, train and equip 
(as do military services) to provide forces/personnel and have 
administrative control over them, while the military or ambassador 
``quarterback'' or have tactical/operational control of forces/
personnel in the field (for example, some have suggested that USAID 
should organize, train and equip AID personnel to serve in the field 
under some other department's/agency's direction). Does State believe 
this is a workable construct for interagency planning and operations in 
the field? If not, provide an alternative suggestion for a chain of 
command/command relationships.
    Ambassador Crumpton.

<bullet> The role of the Ambassador in overseeing interagency planning 
and operations in the field has been and continues to be a workable 
framework. As the President's personal representative to a foreign 
government, the ambassador depends on elements of his country team or 
personnel who are temporarily assigned, from many agencies, to perform 
tasks for which they are uniquely qualified. The Ambassador, as Chief 
of Mission, synchronizes the work and relationships among all USG 
personnel in the Mission to ensure that our foreign policy goals are 
met. For instance, U.S. military civil affairs teams sent to countries 
to improve basic infrastructure would be part of a broader outreach to 
the host nation.

    Mr. Skelton. In testimony, Admiral Redd compared the NCTC to the 
Joint Staff; it does strategic operational planning and assigns tasks 
for CT operations but does not have command authority? First, does the 
government need an organization like the Joint Staff or NCTC [to do] 
the broader interagency planning and assigning of roles and missions or 
do we already have a government organization that can perform this 
role? Second, does the government then need a command structure like 
that of the regional and functional COCOMs to actually command/direct 
personnel in the field to fulfill interagency tasking?
    Ambassador Crumpton.

<bullet> With regard to the first question, at this time, NCTC's 
current role is the best approach.
<bullet> Regarding the second question, COCOMS and ambassadors already 
have a strong interdependency which has been demonstrated in a variety 
of countries throughout the world. We believe the best solutions to 
current challenges come from our respective representatives in the 
field, with support and policy guidance from Washington when needed. 
The current Regional Strategic Initiatives we have undertaken 
demonstrates this approach, recognizing that defeating all aspects of 
terrorism is directly linked to establishing and maintaining strong 
international, as well as interagency, partnerships.

    Mr. Skelton. According to the New York Times, the Downing report 
also criticizes ``Pentagon civilians, the military's Joint Staff, the 
regional war-fighting commanders and the NSC staff for not adjusting 
their organizations to expedite SOCOM's new CT missions.'' The report 
says the senior civilian and military leaders tolerate a system that is 
not ``responsive, flexible, agile'' or global. In addition, according 
to author Thom Shanker's sources, despite Unified Command Plan 
direction to SOCOM, there is ``a tremendous duplication of effort'' in 
the government and that SOCOM ``does not have the power to do what it 
has been assigned.'' What has been done to remedy these problems?
    (a) Is there resistance to SOCOM's role (MLEs?) at embassies from 
State Department and Military Attaches as reported? Why does this 
perception exist?
    (b) If so, what is the solution to this problem?
    Ambassador Crumpton.

<bullet> My office, the State Department's Office of the Coordinator 
for Counterterrorism, works closely with SOCOM and the entire Special 
Operations Community to assist in introducing their skills into various 
parts of the world. Their role is appreciated and there is no 
resistance. Further details regarding SOCOM's remedies should be 
addressed by DOD.
<bullet> We are in constant dialogue with SOCOM to establish MLE 
support requirements in a framework along the same lines as 
arrangements pertaining to other non-DOS entities under Chief of 
Mission authority.
    Mr. Skelton. How can the government better tie resource allocation 
to strategic priorities? Can Congress or the President incentivize 
agencies to participate better in interagency processes through 
budgetary mechanisms? How can the government better reward agencies 
that share and integrate?
    CSIS has suggested an annual NSC(HSC)/OMB review to assess whether 
spending on National Security matches the President's National Security 
Strategy priorities. Do you concur that this might be a viable way to 
improve the linkage of resources to priorities?
    Ambassador Crumpton. The government can better tie resource 
allocations to strategic priorities by making such ties the basic issue 
in allocation decisions. Information for such decisions is already sent 
to Congress each year as required by the Government Performance and 
Results Act. In the case of the Department of State the annual 
Performance Summary is a joint interagency plan with the US Agency for 
International Development. If the Congress and OMB began to cite data 
from the annual performance summary as the reason for allocation 
decisions, this would better reward and thereby ``incentivize'' 
agencies to greater focus on strategic priorities as well as 
participation in integrated programs.
    An NSC (HSC)/OMB review of spending an the National Security 
Strategy (NSS) could be part of this effort, once an interagency 
planning layer of goals and metrics were added that would facilitate 
linkage and assessment of individual agency contributions to the NSS.
    Mr. Skelton. What is the State Department's relationship with 
NORTHCOM?
    Ambassador Crumpton.

<bullet>  State provides an experienced Senior Foreign Service Officer 
as Political Advisor (POLAD) to the Combatant Commander. The Department 
also provides a mid-level Foreign Service Officer to NORTHCOM's Joint 
Interagency Coordinating Group (JIACG).

<bullet>  The Combatant Commander visits the State Department and 
Embassies in his AOR regularly for policy consultations.

<bullet>  NORTHCOM's extensive Theater Security Cooperation program 
includes Canada and Mexico and is closely coordinated with the State 
Department's Offices of Mexican and Canadian Affairs.

<bullet>  Joint Task Force-North (JTF-N), a NC component has an 
intelligence officer in Embassy Mexico City's intelligence fusion cell.

<bullet>  Embassy Mexico City's Office of Defense Cooperation (ODC) is 
composed of NORTHCOM officers.

<bullet>  Embassies Ottawa and Mexico City, and State officers 
participate in NORTHCOM and national exercises together, particularly 
relating to Homeland Defense and the roles of Canada and Mexico.

<bullet>  NORTHCOM participates in the State Department-led initiative 
to draft standard procedures to accept international donations which 
can include military-to-military as a result of extensive policy and 
operational cooperation during Hurricane Katrina.

<bullet>  NORTHCOM hosts ranking State Department visits, e.g. I should 
be visiting July 17. State also hosts NORTHCOM visits, e.g. MG 
Volcheff, Chief of N-NC J-5, visited the Department on June 14.

<bullet>  Because of the significance of its Homeland Defense Mission, 
NORTHCOM regularly hosts ranking foreign visitors outside its AOR in 
support of our common foreign policy goals and frequent International 
Visitor Program participants from other AORs.

<bullet>  NORTHCOM supported State, the co-lead negotiator, in the 
recent NORAD renewal negotiations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. Would you give three or four specific examples from 
Iraq, from our experience in Iraq that last 3 years where we have had a 
failure of interagency cooperation that we wish we had done better on? 
Some very specific example, please, that may or may not have been 
corrected.
    Admiral Giambastiani. Interagency cooperation has not failed in 
Iraq; however, in some areas it is sub-standard. First, though, there 
are multiple examples of superb interagency integration and 
cooperation, for example:

    Threat Finance: Threat Finance Exploitation Unit (TFEU) consists of 
NSC, DOS, DOD, Treasury, DEA, FBI, NSA, CIA, and DHS. TFEU's purpose is 
to impact financial support of terrorist, insurgent, and narcotic 
financing. Action officers meet weekly exchanging information and 
intelligence. Coordinated efforts allow access from the collection and 
analysis nodes to the operator on the ground streamlining the 
collection, analysis, and reporting process.
    High Value Individuals (HVI): JIATF HVI consists of DOD, DOS, 
Treasury, FBI, DHS, and CIA. The Task Force targets former regime 
leaders supporting the insurgency and terror acts inside and outside 
Iraq.
    Border Security: DHS Border Support Teams deployed to Iraq last 
summer to support DOD's request to provide training and mentoring of 
the Iraqi border control system.

    The President directed a comprehensive integrated approach in the 
National Strategy for Victory in Iraq. Interagency organization and 
actions for Iraq are formalized in both structure and process, which 
applies all elements of national power--diplomatic, informational, 
military, and economic. This is executed through the National Strategy 
for Victory in Iraq's Eight Strategic Pillars that help the Iraqi 
people build a nation at peace with its neighbors and create an ally in 
the War on Terror with a representative government. This government 
will respect the human rights of all Iraqis and build security forces 
sufficient to maintain domestic order and to deny Iraq as a safe haven 
for terrorists. The structure consists of an interagency working group 
for each of the strategic objectives. These working groups report to 
the Iraqi Steering Group, which in turn, reports to the Deputies and 
Principles Committees. The process is a combination of working group 
meetings and monitoring and assessing our progress toward the goals 
established for each strategic objective.
    The Department of Defense is organized differently than other 
departments. In Iraq, General Casey (MNF-I Commander) reports to 
General Abizaid (CENTCOM Commander), who reports to the Secretary of 
Defense. The military services provide and support forces assigned to 
CENTCOM. Subordinate military units are designed to deploy, and their 
Soldiers, Sailors, Airmen, and Marines are trained for the tasks they 
perform in Iraq. All are guided by joint and service doctrine for tasks 
across the full spectrum of operations. Depending on the level and type 
of unit, the various echelons of military command in Iraq operate at 
strategic, operational, and tactical levels. The organizational result 
is unity of effort.
    Contrast this with non-DOD agencies assigned in Iraq. They are 
assigned to the Chief of Mission, who reports directly to the Secretary 
of State. Because subordinate elements of the departments are not 
designed to deploy, individual and organizational preparation and 
support is different. Because operations in Iraq are ``non-standard'' 
for non-DOD organizations, there is no equivalent doctrinal guide for 
operations.
    I must emphasize these are not criticisms, they are simply 
observations.
    Uniformed members of the Department of Defense deploy wherever and 
whenever they are needed. In Iraq, if a mid-level expert in a 
particular specialty is needed, he or she may be called upon to deploy 
to meet a requirement for a one-year period. This is not the case with 
civilian government employees, even in wartime. If a mid-level DOD 
Civilian employee is needed in Iraq, he or she does not have to go. In 
some agencies those who do agree to deploy, do so for limited periods 
(four months, six months). Relationships are everything when acting as 
a hands-on advisor to Iraqis. Therefore, longevity, experience, and 
credibility count.
    Again, I must emphasize, these are not criticisms, they are simply 
observations.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Some independent experts have encouraged the creation 
of a Quadrennial National Security Review, similar to DOD's Quadrennial 
Defense Review, though at an interagency level. Do you think such an 
effort would help us better coordinate our assets of national power? 
Would such an effort help you and your agency better meet our nation's 
strategic goals?
    Admiral Giambastiani. The 2006 Quadrennial Defense Review provided 
the Department of Defense the opportunity to balance the needs of our 
ongoing struggle with longer-term requirements to enhance security in a 
rapidly changing world. A similar government-wide approach to 
interagency coordination could potentially help the United States 
develop and coordinate all elements of national power.
    Mr. Langevin. Some independent experts have encouraged the creation 
of a Quadrennial National Security Review, similar to DOD's Quadrennial 
Defense Review, though at an interagency level. Do you think such an 
effort would help us better coordinate our assets of national power? 
Would such an effort help you and your agency better meet our nation's 
strategic goals?
    Ambassador Crumpton. We see value in a formal interagency strategic 
planning and review process tied to departmental performance planning 
and budget formulation and execution. Such a process would regularly 
assess developments in the national and international security 
environments and their implications for Executive Branch Department 
budgets and program priorities. During such a review, investment 
strategies and program performance would be assessed against evolving 
requirements of the security environment. The frequency with which such 
a review should be conducted would need to be studied.
    The Secretary has taken significant steps in this regard with 
respect to her interagency foreign assistance reform initiative. The 
intent of this reform is to ensure that we are strategically allocating 
foreign assistance resources to our priority security goals, assessing 
performance against those goals, and making adjustments as necessary. 
We are also taking concrete steps to widen and deepen State-Defense 
collaboration consistent with the Secretary's Transformational 
Diplomacy initiative by expanding exchange and education programs, 
improving interagency security strategy development processes, 
expanding the number of foreign policy advisor positions on military 
command staffs; and we are working closely with OSD in search of other 
similar opportunities for cooperation.
    An expanded interagency review process might improve the ability of 
the Chief Executive to apply the most appropriate instruments of 
national power to our national strategic challenges.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ISRAEL
    Mr. Israel. You can't just press a button or pass a bill that says 
``better interagency coordination''. It requires a change of thinking 
and culture, which requires training and education, which is best 
provided as part of PME. What needs to be done to incorporate and 
deepen curricula offerings on interagency coordination?
    Admiral Giambastiani. The Department of Defense has continued to 
make strides in implementing new and bolstering existing curricula on 
interagency coordination. I welcome the opportunity to share these 
changes in the hope that other Departments and Agencies can learn from 
our success.
    Joint Publication 3-08: ``Interagency, Intergovernmental 
Organization, and Non-governmental Organization Coordination During 
Joint Operations'' 17 March 2006 provides the doctrinal foundation for 
Professional Military Education (PME) curricula regarding interagency 
coordination. Initial feedback on this publication from the Non-
Governmental Organization community is very positive.
    Recent updates to the Officer Professional Military Education 
Policy (Dec. 2005) and Enlisted Professional Military Education Policy 
(Oct. 2005) have new or expanded Learning Areas/Objectives on 
interagency operations. These policies provide the foundation for 
required joint education curricula.
    Finally, in accordance with the Chairman's policies, each PME 
institution is required to fulfill appropriate joint learning 
objectives. The Joint Staff J-7 visits each intermediate and senior 
service college regularly to assess their compliance with CJCS learning 
objectives.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I represent Guam. Guam is neighbor to some of the 
world's most troublesome potential hotspots. Tensions across the Taiwan 
Strait and the on-going situation with North Korea are of significant 
concern to my constituents, as they are for many Americans. Policies 
aimed to manage their problems require inter-agency coordination and 
execution. For instance, a humanitarian disaster caused by the collapse 
of North Korea is certainly a possible scenario for which the United 
States should plan. With regard to authorities provided by current law 
and the amount of appropriated funds for these types of activities, how 
difficult would it be for U.S. government to coordinate and execute an 
inter-agency response to a massive humanitarian problem like the 
collapse of North Korea? What is your level of comfort with our 
government capability to plan for something like this? I am 
particularly interested in whether the current Department of Defense 
contingency plans for North Korea were developed and coordinated with 
agencies outside the Department of Defense? You may know that Guam was 
host to Vietnamese refugees during and after the war in the country. 
Also, in 1996, Guam was host to nearly 6,500 Kurdish refugees fleeing 
fighting in northern Iraq between the two main Kurdish factions. Guam 
stands ready to assist again, but I am concerned that our planning for 
inter-agency responses to massive humanitarian or other problems is 
lacking.
    Admiral Giambastiani. [The information referred to is classified 
and retained in the committee files.]
    Ms. Bordallo. Admiral, you mention that civilian agencies operating 
in Iraq need to ``step up and solidify progress'' in areas that are key 
to success. Can you please expand upon that comment and define what 
those key areas are and comment on whether commanders in the field 
believe the civilian agencies responsible for that progress have 
adequate human and other resources on the ground in order to achieve 
success in those areas. If the civilian agencies do not have adequate 
resources in the field, to what extent do military forces fill in the 
gaps that may exist?
    Admiral Giambastiani. What I meant by my comment was that several 
areas of economic reconstruction have lagged behind the political and 
security progress that has been made to date.
    For example, over 275,000 Iraqi Security Forces have been trained 
since the end of major combat operations. The Iraqis have elected a 
transitional government; written and ratified a constitution, conducted 
permanent elections, and recently inaugurated a permanent government. 
However, we have not seen the same progress in areas such as oil 
production and exports, electricity power generation and distribution, 
unemployment, and others.
    I have not received specific comments from field commanders about 
civilian resources, but these are challenging areas that Departments 
and Agencies other than the Defense Department are better suited to 
handle. It is more appropriate for the Department of State and US 
Embassy Baghdad to provide an answer regarding resources in the field.
    Ms. Bordallo. Are there lessons regarding inter-agency operations 
on the ground that this committee and the Congress can learn from our 
Iraq experience? I raise this issue with you after having read a 
Friday, March 3, 2006, Washington Post article entitled ``Iraqi 
Security for U.S. Teams Uncertain''. The article refers to the 
Provincial Reconstruction Team (PRT) initiative that the embassy in 
Iraq and MNF-I are pursuing. The article explains that State Department 
officials had hoped that U.S. military would take responsibility for 
ensuring the safety of the dozens of diplomats, aid workers and other 
specialists intended to staff the new outposts, which, when announced 
last fall, were billed as an important initiative for rebuilding the 
country. The article describes the Pentagon as reluctant to take the 
mission of securing these civilian workers. Has this situation been 
resolved, and what was the result?
    Admiral Giambastiani. Thank you for the opportunity to comment on 
the great work being done by the PRTs. These are the kinds of efforts 
that will have lasting, positive effects on countering ideological 
support for terrorism.
    The article you mention describes the security situation 
encountered during the initial ``proof of concept'' for PRTs. Security 
for all seven active PRTs is now a joint Department of State and 
Department of Defense effort and appears to be quite effective.
    PRTs are a civil-military effort led by the Department of State 
with extensive support from U.S. and Coalition military forces. The 
first three Iraq PRTs were proof-of-concept teams subject to a 30- and 
60-day operational assessment. Only one proof-of-concept team had 
military movement/security teams, which consisted of two movement 
security teams. The 60-day assessment (9 March 2006) found that 
movement security was inadequate.
    Each PRT is tailored for the province in which it operates, but all 
have a movement/security team consisting of approximately 40 military/
DOS Protective Security Detail personnel organized into three teams. 
These teams provide concurrent movement and local security for three 
separate groups of PRT members. Nineweh, Tamim and Babil each have two 
military movement teams and a DOS Protective Security Detail. Baghdad 
and Al Anbar have three military movement teams. The UK and Italy 
provide their own military security for their PRTs in Basrah and Dhi 
Qar.

                                  <all>

</pre></body></html>
